<html>
<title> - A RENEWED COMMITMENT TO PROTECTING THE CHESAPEAKE BAY: REAUTHORIZING THE CHESAPEAKE BAY PROGRAM</title>
<body><pre>[Senate Hearing 111-1210]
[From the U.S. Government Publishing Office]




                                                       S. Hrg. 111-1210

                   A RENEWED COMMITMENT TO PROTECTING
                   THE CHESAPEAKE BAY: REAUTHORIZING
                       THE CHESAPEAKE BAY PROGRAM

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON WATER AND WILDLIFE

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 3, 2009

                               __________

  Printed for the use of the Committee on Environment and Public Works



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________
                               
                            U.S. GOVERNMENT PUBLISHING OFFICE 

99-883 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                              
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                              ----------                              

                   Subcommittee on Water and Wildlife

                 BENJAMIN L. CARDIN, Maryland, Chairman
FRANK R. LAUTENBERG, New Jersey      MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                LAMAR ALEXANDER, Tennessee
JEFF MERKLEY, Oregon                 JAMES M. INHOFE, Oklahoma (ex 
BARBARA BOXER, California (ex            officio)
    officio)
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             AUGUST 3, 2009
                           OPENING STATEMENTS

Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware, 
  prepared statement.............................................   132
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma, 
  prepared statement.............................................   229

                               WITNESSES

Griffin, Hon. John, Secretary, Maryland Department of Natural 
  Resources......................................................     4
    Prepared statement...........................................     7
    Responses to additional questions from:
        Senator Carper...........................................    11
        Senator Inhofe...........................................    12
O'Mara, Hon. Collin P., Secretary, Delaware Department of Natural 
  Resources and Environmental Control............................    16
    Prepared statement...........................................    19
    Responses to additional questions from:
        Senator Carper...........................................    24
        Senator Inhofe...........................................    27
Hawkins, Hon. George S., Esq., Director, Department of the 
  Environment, Government of the District of Columbia............    33
    Prepared statement...........................................    36
    Responses to additional questions from:
        Senator Carper...........................................    47
        Senator Inhofe...........................................    49
Douglass, Hon. Gus R., Commissioner, West Virginia Department of 
  Agriculture....................................................    57
    Prepared statement...........................................    59
    Responses to additional questions from:
        Senator Carper...........................................    87
        Senator Inhofe...........................................    88
Brubaker, Hon. Michael W., Vice-Chairman, Chesapeake Bay 
  Commission, Senate of Pennsylvania.............................    95
    Prepared statement...........................................    97
    Responses to additional questions from:
        Senator Carper...........................................   101
        Senator Inhofe...........................................   102
Tierney, Hon. James M., Assistant Commissioner for Water 
  Resources, New York Department of Environmental Conservation...   108
    Prepared statement...........................................   110
    Responses to additional questions from:
        Senator Carper...........................................   116
        Senator Inhofe...........................................   118
Cosgrove, Hon. John A., Chairman, Chesapeake Bay Commission, 
  Virginia House of Delegates....................................   133
    Prepared statement...........................................   136
    Responses to additional questions from:
        Senator Carper...........................................   140
        Senator Inhofe...........................................   144
Wurtzel, Alan L., Chairman Emeritus, Circuit City Stores, Inc....   163
    Prepared statement...........................................   167
Fults, Brent L., Managing Member, Chesapeake Bay Nutrient Land 
  Trust, LLC.....................................................   172
    Prepared statement...........................................   174
    Responses to additional questions from Senator Inhofe........   185
Gannon, Joe III, Vice President, Envirocorp, Inc.................   195
    Prepared statement...........................................   199
Mitchell, Marty, Vice Chief Executive Officer, Mitchell & Best 
  Homebuilders...................................................   203
    Prepared statement...........................................   205
    Responses to additional questions from Senator Inhofe........   213

 
 A RENEWED COMMITMENT TO PROTECTING THE CHESAPEAKE BAY: REAUTHORIZING 
                       THE CHESAPEAKE BAY PROGRAM

                              ----------                              


                         MONDAY, AUGUST 3, 2009

                               U.S. Senate,
         Committee on Environment and Public Works,
                        Subcommittee on Water and Wildlife,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m. in room 
406, Dirksen Senate Office Building, Hon. Benjamin L. Cardin 
(chairman of the subcommittee) presiding.
    Present: Senators Cardin and Carper.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. The Subcommittee on Water and Wildlife of 
the Environment and Public Works Committee will come to order.
    I want to thank our witnesses that are here today. This is 
the second in a series of hearings that the subcommittee has 
held on the Chesapeake Bay and the status of the Chesapeake Bay 
and what we can do in regards to reauthorization of the 
Chesapeake Bay to help strengthen the objectives that we are 
all trying to achieve in cleaning up the Bay itself.
    I am particularly pleased today with the two panels of 
witnesses that we have. I know on the first panel there are a 
large number of people that are here. That is because there are 
so many jurisdictions, so many States that are involved in the 
work on the Chesapeake Bay. It has been one of the reasons, I 
think, for the success of this model is that all stakeholders 
are involved.
    So we are particularly please on the first panel to have 
representatives from all of the States and the District of 
Columbia that are directly involved in our efforts to try to 
clean up the Chesapeake Bay.
    And then on the second panel, we will hear from the private 
sector. The Chesapeake Bay Partnership between the Federal 
Government and the State government has been successful because 
of the private partnership that has worked with us. This has 
not just been a governmental effort, but also a private sector 
effort.
    The partnership itself was a partnership between the 
Federal Government and our States in which we relied upon our 
States for the action plans to try to implement restoration 
efforts. I think we need to start with the fact that we have 
made progress, but not enough progress.
    The United Nations Ramsar Convention recognizes the 
Chesapeake as an ecological region of global significance. I 
think we all agree with that. The Bay has been called a 
National Treasure from Ronald Reagan to Barack Obama. So it is 
generally recognized to be a very special place. But the 
Chesapeake Bay is also in trouble.
    A recent report from the University of Maryland Center for 
Environment Science finds that the ecological health of the 
Chesapeake Bay remains poor. The Chesapeake Bay and its 
tributaries are unhealthy, primarily because of pollution of 
excess nitrogen, phosphorous and sediment entering the waters.
    The main sources are known to us. We know what is causing 
the problem. We need to do a better job of controlling the 
pollutants that enter the Bay from agriculture, from urban and 
suburban runoff, from wastewater from sewage treatment plants 
and from airborne contaminants. So we basically know the 
problem. We need to develop an action plan and enforce an 
action plan that will move us forward.
    We must first recognize that the Chesapeake Bay Program has 
played a critical role in stemming the tide of pollution. The 
model works. The Bay Program is a model for the national 
estuary programs that are helping curb pollution from Casco Bay 
in Maine to San Francisco's estuary in California.
    Any successful program must combine the focus on the entire 
watershed, involve all the key stakeholders and be based on 
sound science. That must be continued and strengthened in the 
Chesapeake Bay model.
    But look at some of the challenges that we now need to 
confront. The population of the Chesapeake Bay watershed has 
grown from 12 million when the program was started 25 years ago 
to 17 million residents today. That is a 40 percent increase. 
That, in and of itself, would be a challenge to try manage the 
Bay itself. But when you look at some of the other factors, 
such as the amount of impervious surface, the hardened 
landscape, that funnel polluted waters into the streams and 
rivers in the Bay, it actually has increased 100 percent since 
during that same period.
    We are losing an astonishing 100 acres of forest land every 
day in the Bay watershed. In shore, there are millions more of 
us, and the size of our impact has grown twice as fast as our 
population has.
    Without the Bay Program, the health of the Chesapeake would 
undoubtedly be much worse than it is today. But barely holding 
our own is not good enough. So merely fine tuning the Bay 
Program will not be good enough, either. We need some 
significant changes if we want to significantly improve the 
Bay, and we want to do just that.
    Everywhere I go, whether it is in the State of Maryland or 
the State of Virginia or Pennsylvania, I hear from people over 
and over again that they are prepared to do what is necessary 
in order to save our Bay. There is tremendous public support 
for our efforts to curb the pollution entering the Bay.
    So we have done some things in the past. It is time to 
evaluate whether they have worked. We know that much of the 
pollution still comes from agricultural lands. Are the major 
increases in Chesapeake conservation funding that we wrote into 
the farm bill going to be sufficient to dramatically reduce 
pollution from farms? Will additional efforts be required as 
well?
    Every day, polluted water runs off the streets and roof 
tops. Polluted storm water runoff is not the largest part of 
the problem, but it is the only source sector pollution that is 
still growing. What can our cities and towns do to control this 
growing problem? And how can we pay for it?
    Nitrogen oxides from air pollution are washed out of our 
skies daily, showering the Bay watershed with excess nitrogen 
pollutants. Are plan programs to reduce air pollutants 
stringent enough to curb this hidden source of nitrogen 
pollution to the Bay?
    Wastewater treatment plants contribute excess nitrogen and 
phosphorous pollutions that are fouling the Bay. Do permit 
requirements need to be based on the limit of technology? 
Should they apply to every sewage treatment plant in the 
watershed regardless of size or location?
    Pollution alone is not the problem. We do not have enough 
blue crabs or native oysters, in part because we have not 
managed our fisheries very well. For example, we are taking too 
many menhadens out of the Bay to turn them into fish oil 
dietary supplements, thereby losing their natural filtering 
capacity in the process. Do we have enough forage fish to keep 
our rock fish abundant and healthy? Does the Bay Program need 
to have a formal fisheries management component in it?
    Well, these are some of the questions that I hope our 
panelists will discuss with us today. We are looking forward to 
the reauthorization of the Chesapeake Bay Program within the 
Clean Water Act, and I hope that the information that we 
receive today from these panels of witnesses will help us in 
crafting that bill for consideration later this year.
    With that, let me turn to our first panel of witnesses, our 
government witnesses that are here. First, let me introduce 
each of you, and then we will be glad to hear from you.
    First we have John Griffin. Mr. Griffin has served as 
Secretary of the Maryland Department of Natural Resources for 
two Governors. I first worked with John on Bay restoration 25 
years ago when he was a staff member for Governor Harry Hughes 
and I was the Speaker of the Maryland General Assembly. Mr. 
Griffin has devoted a substantial part of his working life to 
Bay restoration efforts, and I am pleased that he will be our 
lead off witness today.
    He will be followed by Secretary Collin O'Mara, Secretary 
of Delaware's Department of Natural Resources and Environmental 
Control. Secretary O'Mara serves as Governor Jack Markell's 
appointee on the Chesapeake Bay Program Executive Council.
    George S. Hawkins is the Director of the District of 
Columbia's Department of the Environment. Mr. Hawkins also 
serves as Chair of the Green Building Advisory Council and is a 
board member of the D.C. Water and Sewage Authority.
    Representing West Virginia will be Commissioner Gus 
Douglass. Mr. Douglass is currently serving his 11th term, wow, 
as West Virginia's Commissioner of Agriculture. He has served 
as President of the National Association of State Departments 
of Agriculture, among his numerous other boards and 
commissions, and is considered one of the national experts on 
State agricultural policy.
    State Senator Mike Brubaker serves the 36th District of 
Pennsylvania. Senator Brubaker is the Vice-Chairman of the 
Chesapeake Bay Commission and leads the Pennsylvania Delegation 
to the Commission. It is a pleasure to have you with us.
    Jim Tierney serves as the Assistant Commissioner for Water 
Resources with the New York State Department of Environmental 
Conservation. Assistant Commissioner Tierney leads the 
Department's management team for programs to restore and 
maintain New York's waters.
    And then Delegate John Cosgrove currently serves in the 
Virginia House of Delegates and is Chairman of the Chesapeake 
Bay Commission. The Commission is charged with coordinating 
policies concerning the Chesapeake Bay across State lines.
    Secretary Griffin, glad to hear from you.

          STATEMENT OF HON. JOHN GRIFFIN, SECRETARY, 
            MARYLAND DEPARTMENT OF NATURAL RESOURCES

    Mr. Griffin. Thank you, Chairman Cardin. On behalf of my 
boss, Governor Martin O'Malley, and all of my colleagues in his 
Bay sub-cabinet, I certainly appreciate the opportunity to come 
here before you, staff and perhaps other members today to talk 
about a matter of critical importance to our region, to the 
Nation and indeed to the world.
    If you would allow me a moment of personal reflection. 
Going back to the 25 years ago that you spoke of, I wanted to 
mention unequivocally that that happened to be a point in time 
in Maryland's history, as well as the other primary Bay States, 
when the EPA had just completed its 7 or 8 year study of the 
ills of the Bay and we in Maryland, as well as was true 
elsewhere, were developing our State level response.
    As you pointed out, you were the Speaker of the House then, 
and I can state unequivocally that that initial program of 
budgetary and legislative initiatives would never have passed 
without your leadership as Speaker of the House. So we are very 
pleased to see that leadership continuing during your years 
here in Congress and now as the Chair of this important 
subcommittee. I am thinking of bills like the Chesapeake Bay 
Critical Area Law, the phosphate ban and many others which, 
clearly, without your leadership, would never have been 
enacted. And we thank you for that.
    Senator Cardin. For those nice comments, I will give you 
the extra minute and a half that took you.
    [Laughter.]
    Mr. Griffin. Thank you.
    Speaking of 25 years ago, that is when this effort in an 
official way started following the EPA's Bay study, and it is 
clear that despite a great effort over those last many years, 
we are not getting the results we want. As the old adage goes, 
so we need to change the way we do business.
    We have started to do that in Maryland, and that has been 
happening regionally in Maryland. Governor O'Malley, when he 
came into office 2 and a half years ago, felt that these 
longer-term goals allowed everybody to rest on their laurels. 
Therefore, we have developed this idea of shorter-term goals or 
milestones. They also allow more immediate ongoing measurement 
of progress, and they also allow us to hold ourselves 
accountable.
    So in Maryland, as elsewhere in the region, earlier this 
year we committed to our first set of 2-year milestones that 
would, if we achieve them in Maryland, increase our rate of 
nitrogen reduction by 138 percent and our rate of phosphorous 
reduction by over 500 percent. We hope to do this by the end of 
calendar year 2011, which is the first milestone period for 
Maryland and the other States in the region. That would keep us 
on pace to meet our Maryland goal of achieving Bay restoration 
over current levels of nutrient pollution by the year 2020.
    Regionally, we sense a growing sense of urgency to take the 
necessary actions, most of which we know, and we have most of 
the delivery mechanisms in place. Not all of them. The path is 
not easy. It is getting harder. And it will not be cheap, and 
it will not be without controversy. At the end of the day, we 
believe that we need widespread public support and involvement 
for bold action, not just at the governmental levels but also 
in the way people in this watershed go about their daily lives. 
So it really comes down to choices, we think, for everyone in 
this watershed.
    You had asked us to provide some specific recommendations, 
Mr. Chair, as you consider the reauthorization of the 
Chesapeake Bay Program section of the Clean Water Act, and we 
have several that we would like to offer. Some of them are not 
new, and I am sure that you have heard them before, but they 
are important to keep.
    No. 1, we think that we need to establish and statute in 
this reauthorization a deadline. The region agreed to a 2025 
deadline to meet our nutrient and sediment reduction goals. 
Very recently, we think it is important to have a statutory 
deadline as a stake in the ground. Otherwise, these interim 
milestones become somewhat meaningless.
    No. 2, we need to establish an independent scientific 
evaluation mechanism to promote more accountability. We have 
initially established, through contract with the National 
Academy of Science, an effort to perform that function for us. 
Obviously, accountability and getting results have been a big 
part of what you and others in Congress have been looking at 
over the last several years as it has been obvious that we have 
not achieved the results that we want.
    And not unlike the legislation that was passed for the 
Everglades, we think that you ought to memorialize sections in 
your reauthorization that call for the National Academy to 
perform this function on an ongoing basis for the benefit of 
everyone.
    Three, we think, despite the tough times in which we are 
operating, we should give careful consideration to some 
increase in the level of funding provided through the 
Chesapeake Bay Implementation Program. Forty million has been 
authorized. Roughly $20 million, plus or minus, has been 
funded, or appropriated, in recent years. Our thoughts are that 
should be, we should try to get to the $40 million 
authorization level but with two conditions.
    First, that each State, each member of the compact, be 
required to match that dollar for dollar. And second, at least 
that amount of funding would be allocated proportionately to 
the level of reduction each jurisdictions is required to make.
    No. 4, address urban and suburban runoff. You spoke of this 
in your introductory comments, Mr. Chair. You know that it 
contributes about 23 percent of the Bay's pollution. Restoring 
urban rivers and green infrastructure makes areas attractive 
for infill development and redevelopment, which is critical 
from a growth standpoint to the Chesapeake Bay.
    For example, we are here sitting in the Anacostia 
Watershed, which is the focus, as you know, of a major 
restoration effort. That plan which has been adopted for the 
Anacostia Watershed identifies 5,000 restoration projects, 
1,700 of them are storm water retrofit projects designated as 
priorities.
    And we all know what happens when storm events hit urban 
and suburban streets and roofs and the runoff and the 
degradation that has occurred in the Anacostia and the Potomac. 
Of course, many of the lands and facilities that we are talking 
about on the Anacostia Watershed are owned by the Federal 
Government. This is a great opportunity for the Federal 
Government to lead by example.
    But we need more technical and financial assistance to try 
to make a dent in seemingly a growing and almost insurmountable 
problem of retrofitting all of our developed areas. And there 
are other areas, of course, that are kind of priorities in the 
region for this, the Elizabeth down in Virginia, and your home 
city of Baltimore.
    No. 5, fund core water-related programs. I am really 
offering this one in particular on behalf of our sister agency 
in the State of Maryland, the Maryland Department of the 
Environment's Secretary Wilson, mandating increases federally, 
whether by law or regulation, while funding is decreasing. We 
are speaking specifically here about programs to support the 
NPDES permitting programs, storm water, wastewater and others. 
And so restoring some of the EPA funding that has been 
decreasing recently through increases in section 106 and other 
sections.
    Senator Cardin. I have to ask you to summarize so that we 
have time for questions.
    Mr. Griffin. Of course. A couple of more points.
    Create greater accountability. We are very pleased that the 
President's Executive Order includes elevating regionally 
something we started in Maryland which Governor O'Malley called 
BayStat which is a fiscal dashboard to measure success. It is 
accessible to the public.
    Finally, we really need to establish in the reauthorization 
effective and enforceable implementation plans. I draw for you 
the parallel to the Clean Water Act, or excuse me, the Clear 
Air Act, and we need requirements on the States to develop 
plans approvable by EPA and then enforced by them. I think the 
era of general volunteerism has to be over.
    I guess I would just end by saying, as you just suggested, 
that I would be happy to answer any questions.
    [The prepared statement of Mr. Griffin follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Cardin. Well, thank you.
    We will put each of your entire statements in our record, 
and you can proceed as you wish. We are trying to hold it to 5 
minutes, panelists, so that can have some time to get into a 
discussion.
    Secretary O'Mara.

        STATEMENT OF HON. COLLIN P. O'MARA, SECRETARY, 
  DELAWARE DEPARTMENT OF NATURAL RESOURCES AND ENVIRONMENTAL 
                            CONTROL

    Mr. O'Mara. Thank you, Chairman Cardin.
    On behalf of Governor Jack Markell, I would like to thank 
you for inviting Delaware to this important discussion.
    Delaware joined the Chesapeake Bay family in September 
2000, well after the initial authorization when then-Governor 
Carper committed to working with the Chesapeake Partners to 
achieve water quality goals. Under the leadership of Jack 
Markell and our new administration, we are entirely committed 
to this effort.
    Today, more than 25 years after the first multi-State 
agreement to address water quality concerns in the Bay, we 
still have much to do. Over the course of our next decade, our 
efforts to combat nutrient problems in the Chesapeake Bay will 
also be complicated by another vexing problem, that of climate 
change. No single environmental issue is as sweeping and 
potentially catastrophic as the potential impacts from a 
changing climate.
    But before I address the impacts of climate change on the 
Bay, please allow me to first discuss a few key steps that 
Delaware has taken to improve the water quality and various 
programs that we believe could potentially serve as national 
models as we consider reauthorization.
    Only 2.5 percent of nutrient loading from Delaware comes 
from well regulated point sources. The vast majority comes from 
non-point sources such as agricultural, residential, 
commercial, recreational, and transportation development. Non-
point sources have been a much more difficult challenge. 
Agricultural, septic systems, diverse urban and residential 
transportation sources all impact our water quality.
    Agriculture is Delaware's No. 1 industry, and we are 
committed to ensuring that farming remains a sustainable and 
profitable endeavor in Delaware. Our farmers really see 
themselves as part of the solution, as stewards of the land and 
of the water. However, such productivity and increased 
development across Sussex County, in particular, in southern 
Delaware places special stresses on our natural resources.
    To reduce non-point sources and ensure that we protect our 
natural resources while supporting a vibrant economy, Delaware 
has adopted programs that we believe can serve as national 
models.
    In 2000, under the leadership of then-Governor Carper, 
Delaware adopted a nutrient management law. This unique law 
requires nutrient management plans for the vast majority of 
farms in Delaware that brings together stakeholders, contains 
certification requirements for nutrient applications, reporting 
requirements, and phosphorous-based and nitrogen-based planning 
where needed. By bringing stakeholders together, we were able 
to achieve significant impacts in a very short time.
    Delaware is currently working with EPA officials to 
strengthen the existing program to ensure that key 
environmental outcomes are being achieved. We believe this 
could be a successful model for the region-wide 
reauthorization.
    Similar to our Nutrient Management Program, we believe that 
our pollution control strategies could also serve as a model 
because they are implementing non-point source reductions 
required by the TMDLs. Recommendations include both regulatory 
and voluntary mechanisms for controlling nutrients, reducing 
nutrient management loadings that are beyond EPA's authority. 
Strategies originally designed to meet local water quality 
standards are being updated to achieve the reductions necessary 
for the TMDL.
    These approaches, especially including stakeholder 
engagement throughout the entire process, could have the 
greatest impact if adopted watershed-wide and a unique role for 
the member States in this region.
    Further, Delaware is developing regulations to implement 
nutrient reductions from onsite wastewater treatment and 
disposal systems for new development through enhanced storm 
water and sediment control and riparian buffers, all of which 
will be important to achieving our TMDL.
    While eutrophication is the most important and critical 
water quality concern for the Bay, I believe there will soon be 
a time when tackling water quality issues and implementing the 
solutions seem perfunctory. The impacts from a changing climate 
are going to dwarf the known and foreseen problems acknowledged 
when the Chesapeake Bay Program's enabling legislation was 
penned just a quarter-century ago. I propose that the two 
interconnected challenges of climate and water quality, along 
with air quality, are best addressed holistically.
    As a peninsular State almost entirely surrounded by tidal 
waters and with the lowest mean elevation of any State, 
Delaware will likely be more affected by sea level rise than 
any State in the Nation. Like our neighbors in the Mid-
Atlantic, we have high population density, aging 
infrastructure, critical agricultural resources, and several 
cities exposed to the front levels of sea level rise.
    As we move forward with efforts to improve water quality 
and address climate change, we must ensure that we are using 
the best science to drive our decisionmaking and making sure 
that States have the tools to make this kind of land use 
planning.
    In the Delaware River Valley, we need numerous mitigation 
and adaptation strategies to protect both the health and the 
safety of our residents. We need policies to promote buffers on 
our tidal lands and non-tidal wetlands in order to give rising 
waters room to flow, studies to prepare for the salinity 
impacts on our water supply for both potable consumption and 
agricultural production, as well as the policy tools to align 
our nutrient reduction policies with our carbon sequestration 
to promote practices with multiple benefits.
    We need to incorporate sea level rise and climate change 
realities into our regulatory and incentive programs in order 
to efficiently and effectively promote best management 
practices State-wide. We need the resources to provide Delaware 
and all of the other jurisdictions for the science, tools and 
policies to prepare for this new challenge.
    For example, we know that forested buffers along our 
waterways are the most effective way to reduce nutrient 
management. And they also provide great carbon sequestration 
benefits. However, in the farming community, grassed and 
planted buffers and cover crops are much more preferred over 
these forestry practices. Would this still be the case if we 
actually paid farmers for these practices by actually providing 
the resources to capture the value of the carbon sequestration 
that they are providing?
    I am confident that if we use market-based mechanisms, 
rather than traditional command and control approaches, we can 
incent the environmental outcomes that we need while keep our 
industries strong. We must seek solutions that make it 
economically advantageous to adopt practices that will improve 
water quality and confront climate change. And we need to make 
sure that our farmers and other stakeholders have sufficient 
access to capital to make these important investments during 
this tough economic time.
    Finally, let me close by saying that we must hold ourselves 
accountable, measure progress and verify the environmental 
benefits to regain the trust of taxpayers. Commitments have 
been made several times in the last 25 years, and I have been 
working closely with Senator Carper's office, along with the 
Environmental Defense Fund, to look at their key principles to 
come up with a more comprehensive, outcome driven approach.
    We believe that if we develop and track performance 
measures, really assign responsibility and hold ourselves 
accountable to achieving progress as we did with Governor Kaine 
and Governor O'Malley's leadership at this most recent 
Chesapeake Bay announcement, that we can make substantial 
progress.
    These are the challenges that we look forward to working 
with you on, and I am available for any questions.
    Thank you, sir.
    [The prepared statement of Mr. O'Mara follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
        
    Senator Cardin. Well, thank you very much for your 
testimony. Senator Carper is an extremely valued member of this 
committee and very actively involved on these issues. I 
remember with great fondness working with Governor Carper on 
the issues that you referred to. So we very much appreciate 
your testimony.
    Director Hawkins.

STATEMENT OF HON. GEORGE S. HAWKINS, ESQ., DIRECTOR, DEPARTMENT 
   OF THE ENVIRONMENT, GOVERNMENT OF THE DISTRICT OF COLUMBIA

    Mr. Hawkins. Good afternoon, Senator Cardin.
    On behalf of Mayor Fenty and the entire District of 
Columbia government, I am delighted to be here today. I would 
like to express our profound commitment to the Chesapeake and 
those aspects that run through this city: Rock Creek, the 
Potomac and the Anacostia River.
    We agree with a 25-year end date, or a 2025 end date as 
mentioned by Secretary Griffin, but very much like 2-year 
milestones. We budget on a year-by-year basis. That is how we 
determine our operational work. I am working on our 2011 budget 
now. We need to have milestones connected to the manner in 
which we organize our work on a regular basis. Having 2-year 
and an end date is a good combination.
    I would like to second mention that we are delighted to be 
here as the enterprise that is both a State and a local 
jurisdiction. We are obviously a State for many of the planning 
mechanisms, but the District is the local government. We 
approve every development, we review soil and sedimentation 
plans, we do power, energy and all the building codes. So we 
have a unique view.
    I want to express a few highlights of what we have done to 
date and then mostly look forward to what we would like to see 
going into the future. Three highlights.
    First, I want to mention the incredible importance of the 
Blue Plains Regional Wastewater Treatment Plant. It is the 
largest point source discharge to the Chesapeake Bay, it is the 
largest publicly owned treatment works in the Chesapeake Bay, 
and it is a regional plant.
    And with regional support, we have reached our milestones 
to date under Chesapeake agreements, mainly because of 
improvements that have been made at the Blue Plains Plant. I 
want to recognize that and thank our surrounding jurisdictions, 
Virginia and Maryland, for the joint effort we have worked on 
to achieve that goal.
    Second is our MS4, the separate storm water sewer system 
permit that is issued to us by United States EPA. EPA has told 
us that it is probably the most stringent urban permit in the 
United States. In my 20 years in the field, I have never seen 
anything like it. It is a federally issued permit under the 
Clean Water Act, but it has aspects that dictate how we run the 
District, how we are building or buildings, how we are 
designing our streets, how many trees we are planting, how we 
are doing elicit discharges, how we are picking up trash, how 
we are following up with the pet waste. That is a federally 
issued permit.
    This week we begin negotiations on the new MS4 permit for 
the District, which will be even more stringent. But it is a 
very good model for how to manage day-to-day operations of a 
jurisdiction in a municipality and achieve water quality goals.
    Third, Mayor Fenty and the District Council are very 
committed to green.dc.gov. You can see the Mayor's green 
agenda. It governs really every aspect of city operations from 
how we work with our schools, how we are working with homes, 
businesses, commercial enterprises, streets, parks, green 
roofs, and it is all on the Web. I encourage you to take a look 
at it. It is a good look at an urban green program.
    But looking forward, what we would like to see. I have a 
few points on section 117. First, we were seeking funding at 
the $50 million level. I do not think there is any way we are 
going to achieve our goals in this effort unless we have more 
firepower, more green firepower to bear. I like the idea of 
matches by local government.
    Second, we are a strong believer in a national or it could 
be a basin-wide standard for storm water control. This is just 
what was done in the Clean Water Act of 1972 for point source 
discharges. Up to that point, every State or jurisdiction was 
negotiating their own discharge levels. It was very resource 
intensive, battles being fought in every jurisdiction until 
national standards were created.
    There is no reason why we cannot have fundamental standards 
for storm water control, urban, rural and suburban. It will not 
be one size fits all, just like as is done for point sources, 
but can make sure that the science and the technology are 
established so each jurisdiction does not have to fight that 
issue on its own, but can be consistent across the basin.
    I connect that to basin-wide TMDLs. There should be a 
baseline, again urban, suburban and rural. I know that it is 
tough for agriculture. I know it is tough for suburban. We have 
to retrofit the 90 percent of the buildings in the District 
that are already here. It is tough, expensive work. But again, 
the basin-wide TMDL should be driven by EPA, review State 
implementation plans and reasonable assurance.
    Next, section 438 of the Energy Independence and Security 
Act. I know you know about that. There is no implementation 
mechanism for that provision which requires stringent storm 
water requirements for Federal facilities. Thirty percent of 
the lands and buildings in this District are owned and operated 
by the Federal Government. It is a remarkable opportunity this 
statute applies. Section 117 could articulate an implementation 
strategy for those requirements.
    Fourth, in section 117 is the Anacostia River. The 
Restoration Partnership does have an Anacostia Plan. We 
appreciate that EPA has appointed Chuck Fox as a special 
assistant on the Chesapeake and the Anacostia. It is a 
principal example of an urban waterway with Maryland and D.C. 
as its principal areas that can be implemented and funded 
through section 117.
    Let me mention four other quick points, and then I will 
conclude.
    One, I will not go into great detail, but we will not 
succeed unless there is a Federal effort, which there has been, 
but I encourage it an even greater level, for Blue Plains. For 
nutrient reduction and the Long Term Control Plan, which is a 
mixture of sewage and rainwater going directly into our water 
bodies, $3 billion plus in capital funding is expected in the 
next 10 years. That will be extremely difficult for the 
ratepayers in the District, particularly those who are low 
income, as well as our suburban customers to pay without some 
Federal support for a Federal outcome. So Blue Plains support.
    Second, storm water requirements in the reauthorization of 
the Federal Surface Transportation Act. We will be redesigning 
the roads of the District under an MS4 permit to be storm water 
protective. My view is that the Federal requirement should be 
in parallel and should be in place with the Federal 
transportation funding mechanism, just like it will be for the 
District.
    Third is to support the Circuit Rider notion. We need 
someone, or more than one person, who can go throughout the 
Chesapeake and teach municipalities about content and issues 
that do not have to be relearned in every place.
    And finally, a regional or national coal tar ban. We just 
did that in the District. It turns out there is an easy way to 
reduce PAH discharges in coal tar by up to 1,000 percent 
because there are equivalent technologies that are easy to 
implement.
    Those eight strategies, I think, could be a significant 
part in how to improve the Bay as we go ahead.
    Thank you.
    [The prepared statement of Mr. Hawkins follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    Senator Cardin. Thank you very much for those suggestions. 
As you pointed out, we have provided some help with Blue 
Plains, but clearly it is a challenge. We understand that.
    We have been joined by Senator Carper. Your Secretary has 
mentioned your name several times as Governor Carper and the 
good work that you did as Governor and continue to do in the 
U.S. Senate on water issues. You may want to thank him. That is 
all I am suggesting.
    [Laughter.]
    Senator Carper. Thank you.
    [Laughter.]
    Senator Carper. I say thank you as a recovering Governor. 
Can I say just a quick word about Secretary O'Mara?
    Senator Cardin. Sure.
    Senator Carper. He was selected by our Governor at the 
tender age of 29 to become Secretary for the Department of 
Natural Resources and Environmental Control. We stole him from 
out around San Jose. For a guy his age, he has quite a 
wonderful resume.
    The people of Delaware elected Joe Biden to be Senator, a 
U.S. Senator, at the age of 29. They were kind enough to elect 
me to be State Treasurer at the age of 29. What I first thought 
was, gosh, 29 seems so young for somebody to be Secretary of 
Natural Resources and Environmental Control. Then, when I 
thought about it, I said, you know, that is about the right 
age.
    So we are delighted that he has come to our State and 
delighted that he is here today. He is one smart cookie and 
just a very good human being. So we welcome him here today.
    And I think there may be another person here from Delaware. 
Is there more than one panel here?
    Senator Cardin. Yes.
    Senator Carper. He may be on the second panel. I am going 
to be chairing a committee of my own at 3 p.m. to I am going to 
have to slip out. But thank you all for coming. These are 
important issues, as you know.
    And as your neighbor to the east, we want to be your 
partner in getting us to a cleaner, healthier Chesapeake Bay. 
Thanks.
    Senator Cardin. Thank you very much, Senator Carper.
    Commissioner Douglass.

STATEMENT OF HON. GUS R. DOUGLASS, COMMISSIONER, WEST VIRGINIA 
                   DEPARTMENT OF AGRICULTURE

    Mr. Douglass. Thank you, Mr. Chairman, for this opportunity 
to represent some of my environmental concerns as well as those 
of my counterparts across this great Nation.
    In June 2002, the West Virginia Department of Agriculture 
joined the Chesapeake Bay Program. But the Department has been 
involved in water quality monitoring since 1999, when 
agriculture became the focus of a TMDL for fecal coli in the 
Eastern Panhandle's waters.
    Agriculture is commonly seen as the primary contributor of 
nutrients to the Chesapeake Bay because one, agriculture is 
highly visible to the public, and two, it is commonly believed, 
but unproven, that agriculture can make the most reductions for 
the least money.
    The truth is that, one, numerous sources affect water 
quality including residential lawns, urban runoff, highway and 
airplane deicers, wildlife and, importantly, wastewater 
treatment plants that rely on decades-old technology.
    Two, since 1996, West Virginia's Eastern Panhandle farmers 
have invested $8.6 million of their own money into Best 
Management Practices, plus $24 million in government cost-share 
funding.
    Three, a safe, affordable and geographically diverse food 
supply remains one of our Nation's most important policy 
considerations.
    And four, data gathered in the region is extensive, and it 
shows that voluntary conservation programs have maintained good 
water quality in West Virginia's streams for over a 10-year 
period.
    An example of this is the Potomac Headwater Land Treatment 
Program, which was one of the first nutrient management 
programs of its kind to boast voluntary participation of over 
85 percent, folks, of the poultry and beef producers in the 
Eastern Panhandle. This program initiated 269 long-term 
contracts specifically for nutrient reduction in the Potomac 
Valley.
    Through this and other programs, West Virginia was able to 
remove the North Fork of the South Branch River from the 303(d) 
list of impaired streams back in 2003. This is perhaps the only 
success story of its type that I am aware of in this country.
    Meanwhile, in the far eastern part of the Panhandle, 
agricultural land is facing an onslaught from commercial and 
residential development. Folks, we lost 76,000 acres of 
farmland in recent years. And yet water quality in the 
Chesapeake Bay continues to decline.
    So I ask you, which is the greater burden on the 
environment: a farm that has spent tens of thousands of dollars 
of its own money to create as small an environmental footprint 
as possible, or a new housing development that destroys green 
space and wildlife habitat, burdens undersized sewage plants, 
and typically consumes more in services than in taxes?
    West Virginia will have new concentrated animal feeding 
operation regulations on the books in 2010. We should be 
allowed to give these new CAFO standards a chance to see what 
reductions they bring before we are forced to undertake new 
regulatory schemes.
    I am now serving my eleventh term as West Virginia's 
Commissioner of Agriculture. And folks, during those four 
decades in office, I have seen a few things that work and many 
that do not. One thing that does not work is excessive 
regulation of our farm community.
    The WVDA and other agencies have committed to using a 
voluntary approach to water quality because we have shown that 
it works to protect the environment, our State's economy, and 
our Nation's food supply.
    And folks, the bottom line is if you want additional action 
on the part of the States, it is going to take staff, 
educational opportunities and cost-share programs. There will 
be increased benefits to the Chesapeake Bay, with the local 
water quality, if we can get the possible funding.
    Thank you for your attention and your invitation to be here 
today. I would be happy to take any questions.
    [The prepared testimony of Mr. Douglass follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
       
    Senator Cardin. Thank you very much, Commissioner Douglass. 
I can assure you that we share your concern about preserving 
farmland and open space. We think it is critically important to 
the Chesapeake Bay, and we share that goal. We will have a 
chance to talk about the best way to do that.
    Senator Brubaker, it is a pleasure to have you here. 
Pennsylvania has been a leading player in the Chesapeake 
Program from its inception. We could not have made progress 
without the leadership in the State of Pennsylvania.

     STATEMENT OF HON. MICHAEL W. BRUBAKER, VICE-CHAIRMAN, 
       CHESAPEAKE BAY COMMISSION, SENATE OF PENNSYLVANIA

    Mr. Brubaker. Thank you, Senator, for those comments.
    Chairman Cardin, Senator Carper, it is my privilege and 
honor to be here today. Thank you for the invitation.
    My name is Mike Brubaker. I am a Pennsylvania State 
Senator, representing the 36th Senatorial District, which 
includes a part of Lancaster County, most of Lancaster County, 
and part of Chester County. I am honored to represent 
Pennsylvania today at this hearing and offer my support for 
your efforts to reauthorize section 117 of the Federal Clean 
Water Act.
    The current language of section 117 has played a vital role 
in the establishment of the Chesapeake Bay Restoration Program 
and has served as a central catalyst for the multi-
jurisdictional campaign. However, the time has come to revamp 
this law, to give it new fuel by adding Federal authorities, 
mechanisms of accountability, and enhanced financial support 
that will collectively leverage even greater actions at the 
local and State level.
    By way of background, approximately half of Pennsylvania 
lies within the Chesapeake Bay watershed, and Pennsylvania's 
Susquehanna River supplies 50 percent of the fresh water to the 
Chesapeake Bay. Pennsylvania is responsible for the largest 
share of pollution reductions to achieve our Chesapeake Bay 
water goals.
    Almost my entire senatorial district lies within the 
Chesapeake Bay watershed, and I am proud to serve as Chairman 
of the Pennsylvania Delegation to the Chesapeake Bay Commission 
and Majority Chairman of the Pennsylvania Senate Agriculture 
and Rural Affairs Committee.
    I am also an agronomist, a plant and soil scientist with 
over 30 years of working with farmers in the northeast part of 
the United States. I have also worked with the Chesapeake Bay 
related organizations since the year 1980. I have also written 
hundreds of nutrient management plans myself.
    While Lancaster County may be known for its most productive 
farmland, some of the most productive farmland in the world, we 
have a large population of plain sect Amish and Mennonites. 
Lancaster County is a very diverse and growing county. It is no 
stranger, also, to suburban development and the continual 
challenges of economic development and environmental 
protection. Lancaster County has 500,000 residents, and believe 
it or not, 12 million visitors each year.
    I am going to skip some of my testimony so I can keep on 
time.
    Importantly, while sources of impairment to the Bay are 
simple, excess nitrogen, phosphorous and sediment are the 
clearly the focus, and also as clearly, there is not a one-
size-fits-all solution to this very complex problem.
    Second, the Bay program's work must be science based. As a 
legislator, I frequently work with Bay Program data, and I work 
with that inside of my policy decisionmaking processes. While 
not always perfect, this information is very good and open to 
the public for review.
    Now for the shortcomings of the program. The Bay Program 
has not historically focused on implementation, or more 
precisely, accountability for implementation. It has instead 
focused on research and policy. As a result, we have not 
sufficiently driven reductions of nitrogen, phosphorous and 
sediment from existing sources, primarily agriculture and 
wastewater treatment plants.
    In Pennsylvania, we are reducing nitrogen loads at the rate 
of 1.2 million to 1.5 million pounds of nitrogen reduction per 
year. Most of those reductions have come from the 
implementation of agricultural best management practices 
spurred by State nutrient management regulations, Federal 
regulation of concentrated feeding operations, and State and 
Federal cost share programs like those in the Federal farm 
bill.
    Unfortunately, Pennsylvania still has more than 30 million 
pounds of nitrogen reductions to meet our goal. Thus, our 
progress toward a clean Chesapeake Bay has been slowed, and we 
have to play catch-up.
    I see my time is nearing conclusion. So let me skip. I 
heard you say that my entire testimony is submitted, correct?
    Senator Cardin. Your entire testimony will be included in 
the record, and we will be looking at that. But if you need an 
extra minute or two, take it, please.
    Mr. Brubaker. Well, thank you.
    In the year 2008, I, as a Republican, joined with my fellow 
Commission member and Lancaster County State Representative 
Mike Sturla, a Democrat, to convene a bi-partisan Lancaster 
County Chesapeake Bay Tributary Task Force. The Task Force 
consists of more than 50 businesses, agriculture, local 
government, and scientific leaders in Lancaster County to 
address our Chesapeake Bay responsibilities in a way that makes 
fiscal sense and environmental sense for our community.
    I would be very happy to submit a copy of this book. I am 
very proud of this organization, this bi-partisan mostly 
private sector organization. Every member that chose to come 
from the community chose to come and put our differences aside, 
work cooperatively on solutions without the Federal Government, 
without the State government, without anybody telling us what 
to do.
    And it is just absolutely amazing when you allow people to 
come to the table voluntarily, with one goal in mind, to figure 
out how can we do business, how can we allow our businesses to 
grow, and still at the same time reduce our environmental 
footprint and enhance our contribution to the Bay. It is a real 
success story.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Brubaker follows:]
    
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
    Senator Cardin. Well, thank you for your testimony but, 
more importantly, thank you for your action. It is not apparent 
on the surface Pennsylvania's role in the Bay. As you pointed 
out, the Susquehanna is the largest supplier of fresh water. We 
could not have made a progress on Bay without aggressive action 
by Pennsylvania.
    Your leadership has been incredible over the years, and we 
really do thank Pennsylvania for that.
    Commissioner Tierney.

STATEMENT OF HON. JAMES M. TIERNEY, ASSISTANT COMMISSIONER FOR 
     WATER RESOURCES, NEW YORK DEPARTMENT OF ENVIRONMENTAL 
                          CONSERVATION

    Mr. Tierney. Thank you, Mr. Chairman. And thank you, 
Senator Carper. I just came in from Delaware where I am 
vacationing, and it is looking good, the water is looking good 
in there. It is all right.
    I submitted testimony. So I am going to try and skip right 
to some key bullet points for your consideration.
    One of the first things I would like to recognize is the 
fact that Chuck Fox has arrived on the scene with a special 
focus from EPA, which is showing up in things like Presidential 
Executive Orders and Federal agency coordination and the like, 
which is highly beneficial, and I think that is a terrific 
thing that the Administration has done.
    And Jeff Lape, who has coordinated the Chesapeake Bay 
Program for years, comes to New York, knows us, works with us, 
and we really do appreciate the attention that he gives us and 
that open line of communication.
    What you will hear a lot in Chesapeake Bay talk is EE3: 
everything by everybody everywhere. And that we are going to 
have to get fairly close to that in order to solve the problem. 
What is truly involved in EE3 is quite something. Every septic 
system or 90 percent of them. Things like that. Every road 
ditch, every retrofit fit, you know, basically retrofitting the 
built environment, the excavated environment, and the farmed 
environment.
    There is a lot that will be discussed there, and I think 
EPA is taking a leadership role in framing a lot of what is 
involved in that. But it does not solve the overall Chesapeake 
Bay problem.
    New York's portion of the Chesapeake Bay is highly rural, 
contrary to the popular understanding of the New York 
environment. It is 70 percent forested. It is a lot of dairy 
agriculture in that area. It really is very rural. And 
protecting that rural landscape, those wetlands, those streams, 
the mountains, and the forests effectively, protecting what you 
have already got is a big thing.
    So what we may want to think of in terms of the 
reauthorization or policy or oversight work going forward is an 
EE3 for natural resource protection. Governor Paterson is a 
strong supporter to the Clean Water Restoration Act, for 
example. That we want to restore the jurisdiction over waters 
that we have lost in the Rapanos decision and some of those 
other Supreme Court decisions that have harmed the level of 
jurisdiction over the natural resources that naturally clean 
and protect the water.
    As a Senator from Maryland, I think you would be very 
interested, and very supportive, of course, in an EE3 free 
airshed, particularly for NO<INF>x</INF>, SO<INF>x</INF>. 
Maryland just gets hammered by out-of-State emissions of air 
pollution that waft into your State. Put aside water quality, 
think about kids with asthma, and the impacts on health of the 
elderly, heart attacks and the like, but also that 
NO<INF>x</INF>, that nitrogen, entering the Bay.
    The estimates range from between 20 to even as high as 30 
percent of the nitrogen in Chesapeake Bay comes from air 
deposition. Nitrogen, as you probably know, is very difficult 
to remove once it is on the landscape. It does not absorb to 
soil, so it tends to get there somehow. So you have to stop it 
at the source, at that smokestack, hopefully even at the low 
nitrogen fertilizer and the like.
    A third thing that we have to think about beyond the built 
environment is technology standards. This is very important. 
EPA needs to get the technology standards, and that is 
different than water-based quality standards, for wastewater 
treatment plants out of the cellar. We do not really have a 
national floor right now, we have a national cellar. We need 
them to get that up on the first floor and maybe start to reach 
toward the ceiling a bit more.
    That program helps push standards nationally. For instance, 
the secondary treatment level of technology for wastewater 
treatment plants nationally is now some 30 years old. The 
technology is way beyond that. We need to move on. And it also 
gets us out of this daily grind of TMDLs. You know, basin by 
basin, point source by point source, planning and programming. 
It helps jump us ahead quickly.
    The fifth thing I would like to talk about is that we need 
to think in terms of a basin approach, not simply a Bay 
approach. If you want my farmers and my rural country people 
and my foresters up in New York to be interested in the Bay, we 
have to do something for them as part of this program. They are 
interested in flood hazards. There are a lot of flash floods 
and the like there. A flood plain mapping, source water, 
drinking water source water protection, wetlands and wetlands 
construction, and good forestry maintenance and even buying the 
land, where appropriate.
    We think all those things together kind of bring the hope 
that the Bay will ultimately run clean. And it is New York's 
hope to be a part of that partnership and a successful 
partnership down the road.
    I will stop my comments there, Mr. Chairman.
    [The prepared statement of Mr. Tierney follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Cardin. Thank you very much.
    Delegate Cosgrove, I am going to ask your cooperation for a 
moment. I know that Senator Carper is going to have to leave 
shortly, and I want to give him a chance to ask questions. Then 
we will return to your formal comments. Feel free to try to 
answer questions that Senator Carper may be proposing.
    Senator Carper. Thank you very, very much, Mr. Chairman. 
And again, our thanks to all of our witnesses for joining us 
here today.
    Commissioner Tierney, you are talking about the effect of 
air emissions and the presence of sulfur dioxide and nitrogen 
dioxide in the air and the bad things that it does to our 
health when we breathe it in. Also, I think you were 
registering how part of the water degradation in the Chesapeake 
Bay is because of, I think you said sulfur dioxide and nitrous 
oxide. Is that what you said?
    Mr. Tierney. Nitrogen.
    Senator Carper. Nitrogen oxide. As the Chairman knows, some 
of us have been working here in the Senate for a while on 
legislation to reduce the emissions from----
    Senator Cardin. The Senator has personally been in my 
office many times to personally lobby on behalf of his 
legislation, if that is what----
    Senator Carper. You are very kind to be supportive. But 
what we are trying to do in legislation, national legislation, 
is to take nitrogen oxide, which is really now only controlled 
east of the Mississippi, and to make sure that we try to reduce 
nitrogen oxide emissions by at least 70 percent between now and 
2015, not just east of the Mississippi but also west of the 
Mississippi.
    And we would reduce the sulfur dioxide emissions by some 80 
percent by 2015 and mercury emissions by some 90 percent by 
2015. We are delighted that the technology has moved along so 
that we can actually reach those goals now without undue 
economic damage, I think, to the utilities. But I appreciate 
very much the point you have made.
    We talk a lot about carbon dioxide emissions and the need 
to rein in carbon dioxide emissions, and I fully agree with 
that, and while we do that to turn it into economic 
opportunities for us. But we can find economic opportunities by 
controlling sulfur dioxide emissions, nitrogen oxide emissions 
and mercury emissions to create technologies and products that 
we can sell around the world to reduce those.
    I am going to ask Secretary O'Mara just to take a moment. I 
apologize for missing your testimony. I just came in on the 
train and rushed right over as soon as I got here. But just 
some takeaways for me as your, I started to say as your junior 
Senator. I am so used to saying junior Senator. As your senior 
Senator, some takeaways for me and for Ted Kaufman, our new 
junior Senator, for purposes of this hearing.
    Mr. O'Mara. I think from the point of view of Delaware, 
sorry, from the point of view of my department, we really want 
to take a new approach to the challenge that the Bay presents 
us. It is beyond just the water quality issues. It is also 
getting into multi-media challenge, like you mentioned air 
quality, and also planning for the issues around climate 
change.
    Now, we have done some very innovative things in Delaware, 
some of which started under your leadership with the Nutrient 
Management Program, being stakeholders together, holding people 
accountable. So we believe that, you know, now is the time to 
readjust sails and find those kinds of market-based economic 
solutions to try to encourage people to adopt the behavior we 
want, but at the same time making sure that agriculture is 
financially viable and other industries down in the southern 
part of the State.
    So really I am asking for, you know, taking a hard look at 
whether it is the Waxman-Markey bill as it is written, are 
incentives being put forth for carbon sequestration and other 
activities like that? Let us try to advance policies that 
provide multiple benefits.
    We know forested buffers in Sussex County will provide both 
water quality impacts and carbon emissions. And so if there are 
ways to tie things together intelligently across these bills, 
across media, I think the more successful it will be, and it 
will have a bigger impact despite the current economic 
downturn.
    Senator Carper. Thank you. We were pleased to work with one 
of your constituents, Jim Purdue, during my second 
administration as Governor, my second term as Governor, and we 
have, as you know, a lot of chickens on DelMarVa Peninsula, and 
they create a lot of chicken manure. We call it nutrients. But 
it is a lot of nitrogen and a lot of phosphorous.
    In the past, we have stacked it up in fields, sometimes 
several inches deep, and spread it out more than we should 
have. And put it out in fields, laid it out in nonem pads, not 
covered pads, but allowed the waste to come and be washed into 
our streams and ditches and so forth.
    We are doing a much better job. One of the things that I am 
very proud of is that we created a Nutrient Management 
Commission that required all of the farms that spread nutrients 
to have a Nutrient Management Plan, required training for the 
folks who were spreading the nutrients during the course of the 
year.
    We did a wonderful partnership with Jim Purdue and the 
folks at Purdue. And the partnership basically says, let us put 
some State money and some Purdue money together and create a 
facility just outside of Seaford, Delaware, just north of 
Delmar, Maryland. The idea is to take about 15 percent of the 
nutrients from the poultry houses, take them to this facility, 
treat them under high temperature, create a pelletized organic 
fertilizer that we sell all over the country.
    And I think now they are actually making some money doing 
this. So we kind of created an economic opportunity out of 
this. We still have work to do. But I think we are on the right 
track.
    I would say to our friend from West Virginia, you were 
talking about the Eastern Panhandle, do you raise some chickens 
there? Raise any chickens? Do you all raise any chickens in 
West Virginia?
    Mr. Douglass. The Eastern Panhandle is the chicken capital 
of West Virginia in the Moorefield area.
    Senator Carper. I thought so. I am from Beckley, from 
Raleigh County, that is where I was born. So you are from Mason 
County, are you not?
    Mr. Douglass. Yes, Mason County.
    Senator Carper. I thought so. Well, welcome. We will learn 
from you in terms of reducing nutrients that go into our 
waterways and perhaps you all can learn from what we have done 
as well.
    Mr. Douglass. Well, you are aware of what we have done in 
Connaught Valley as well, SO<INF>2</INF> particulates, and so 
we are serious in the environmental problems and again, we want 
to be good citizens, the farm community does, and appreciate--
--
    Senator Carper. You bet. Well, those of us who live in the 
DelMarVa Peninsula and the Mid-Atlantic Region who end up, we 
call it, at the end of America's tailpipe, breathing the sulfur 
dioxide and nitrogen dioxide and mercury that has come up from 
a lot of other places to our west, we appreciate everything 
that you can do there.
    And I appreciate the leadership of Senator Cardin on this 
issue and a whole host of others and for giving me a chance to 
come by and join you for just a little bit. Thank you so much.
    [The prepared statement of Senator Carper follows:]

                  Statement of Hon. Thomas R. Carper, 
                U.S. Senator from the State of Delaware

    Good afternoon, and thank you, Chairman Cardin, for 
convening this hearing. I appreciate your inclusion of me and 
the other Chesapeake Bay watershed Senators.
    While I look forward to the testimony of all our panelists 
this afternoon, I wish to welcome in particular two panelists 
from my home State of Delaware--the Honorable Collin O'Mara, 
our new head of the Department of Natural Resources and 
Environmental Control.
    Although he comes to us by way of San Jose, California, Mr. 
O'Mara is no stranger to the Mid-Atlantic, as he has spent a 
great deal of time along Delaware's and Maryland's coasts.
    I would also like to welcome Mr. Joe Gannon, Vice President 
of Envirocorp, which is based out of Harrington, Delaware. Both 
Envirocorp and the Gannon family have a long history of 
protecting environmental quality and fostering citizen 
awareness in the watershed.
    Thank you both for joining the subcommittee today to 
provide your perspectives.
    As the Nation's largest estuary, the Chesapeake Bay 
supports an immense diversity of plant and animal life. The Bay 
is a prime example of the fact that ecological and economic 
significance go hand in hand. The Chesapeake yields more fish 
and shellfish than any other American estuary, providing jobs 
and supporting the regional economy.
    Unfortunately, as we all well know, the Bay and much of its 
tributaries are not in good health. Excess amounts of nitrogen 
and phosphorous pose an especially grave threat to the 
ecosystem, as they destroy habitat and kill aquatic life.
    In addition to the challenges of nutrient loading, the 
watershed is threatened by population growth, sprawling 
development, and the impacts of climate change--not the least 
of which are sea level rise and salt water intrusion.
    Not to be overlooked is the serious impact of air pollution 
on water quality and the overall health of the Chesapeake Bay 
region. Nearly a quarter of the nitrogen pollution flowing into 
the Bay comes from the atmosphere.
    Nitrogen emitted into the air can also negatively impact 
the growth and survival of plant and animal species in and 
around surface waters. Mercury is another very serious threat, 
as it is responsible for more fish contamination than any other 
pollutant.
    Simply put, our goals for water and ecosystem quality will 
not be met unless we also address the contributions of air 
pollution. My colleagues and I on this committee are working 
very hard on this front, and I look forward to unveiling clean 
legislation in the near future.
    In closing, I would like to recognize the fine work taking 
place on the ground in Delaware to educate the public and form 
grassroots coalitions to protect the watershed.
    In Delaware, we're faced with no easy task--more than 90 
percent of the State's waterways are considered ``impaired.'' 
The most common impairments come from hard to control, non-
point sources.
    I applaud the work of Delaware's Tributary Action Teams, 
which are creating pollution control strategies tailor made for 
each of the State's watersheds.
    The most important element of Delaware's strategy is the 
engagement with citizens--allowing local residents to weigh the 
merits of various proposals--and collaboration with 
stakeholders and advocacy groups.
    I'm hopeful that we can build on this model of grassroots 
engagement and collaboration, and I look forward to hearing the 
perspectives of other States on this truly regional issue.
    Thank you.

    Senator Cardin. Well, thank you, Senator.
    Senator Carper. You are welcome. And I understand that on 
the second panel there is young Joe Gannon, Vice President of 
Envirocorp, which is in Harrington, Delaware, where we have the 
State fair, they just closed it down on Saturday night. But to 
Joe Gannon, welcome, and thank you for inviting him and letting 
Delaware not only on one panel but on two. This is a good sell. 
Thank you.
    Senator Cardin. Well, we can learn a lot from Delaware. We 
know that.
    I would just like to make an observation. Agriculture is 
very important to the State of Maryland. It is a major part of 
our economy. I can just assure you that we are going to do 
everything we can to preserve agricultural land. We think it is 
critically important for many reasons, including our economy as 
well as our environment.
    I recall very vividly when we started down the Bay Program 
the first partners we brought in was our agricultural 
community, to work with them to make sure that what we did is 
consistent with the economics of farming which, we think, can 
make sense.
    And of course, if there is need for special attention, as 
one of you pointed out, as far as the buffer zones, that is 
something that we should talk about, how to make it 
economically feasible to have that type of activity.
    Delegate Cosgrove, thank you very much for your patience. 
It is good to hear from you.

 STATEMENT OF HON. JOHN A. COSGROVE, CHAIRMAN, CHESAPEAKE BAY 
            COMMISSION, VIRGINIA HOUSE OF DELEGATES

    Mr. Cosgrove. Thank you, Mr. Chairman. I thank you for the 
opportunity to testify----
    Senator Cardin. You need to turn on your microphone.
    Mr. Cosgrove. There we go. I am an engineer, too, I should 
have figured that out.
    [Laughter.]
    Mr. Cosgrove. I appreciate the opportunity to be here today 
to ask for your concurrence in the reauthorization of the 
Chesapeake Bay Program, section 117 of the Clean Water Act.
    At the outset, I want to commend you for your leadership in 
bringing this important issue to the forefront to advance the 
restoration of the Chesapeake Bay. Senator, you are a gentleman 
of the Bay. You get it. We are just here to kind of reinforce, 
I think, what is already known well to you.
    The role of the Federal Government is critical to the 
success of the Bay restoration. And for the effort to succeed, 
that role must grow stronger. I am here today as a Virginian, I 
am here today as the Chairman of the Chesapeake Bay Commission, 
and I am here as a proud Republican to tell you that we need 
the Federal Government to play a stronger and more targeted 
role in Bay restoration.
    The Clean Water Act must provide new authorities and 
accountability measures that complement our State efforts in 
order to minimize pollution from all sources. We believe that 
restoring our Nation's largest estuary is a shared 
responsibility, not just of the States or local government or 
the private sector, but of the Federal Government as well.
    In February 2008, the Chesapeake Bay Commission developed 
and broadly distributed a special report containing a full 
suite of recommendations for Federal legislation and funding to 
advance the Bay's continuing restoration over a 3-year period, 
2008 to 2010. Included within that report were recommendations 
that the EPA Chesapeake Bay Program be reauthorized with a 
heightened focus on new authorities, increased implementation 
and accountability.
    The bottom line--since we have to do more with less, we 
need to do a better job choosing what is regulated, what is 
incentivized, and where these programs are more strategically 
applied.
    Now, I have been a member of this Commission for 5 years, 
and I have the honor of Chairing the Commission this year. In 
the past 5 years, I can say that we have seen a huge increase 
in State and local government investments in the Bay. In 
Virginia alone, through the State Water Quality Improvement 
Fund, we have invested over a half a billion dollars to upgrade 
our water treatment programs within the Bay watershed. We have 
committed to another half a billion dollars over the next 5 
years to continue those efforts.
    Our local governments have stepped up their commitments and 
are utilizing the Clean Water Revolving Loan Fund to help 
shoulder their burden to cover the remaining costs of the 
upgrades. And recently, Federal funding to the Clean Water 
Revolving Loan Fund has increased, and we thank you very much 
for that. And other States in the Bay are using this fund and 
making good progress in tackling their point sources of 
pollution to the Bay.
    So thanks in large part to the increased State and Federal 
funding and existing regulatory permit authority within the 
Clean Water Act, we are reducing point sources of pollution 
delivered to the Bay. Hundreds of sewage treatment plants 
throughout the watershed are being upgraded with new 
technologies to reduce nutrient loads.
    The Federal Government needs to step up, and we need to 
have those authorities in place so the States can do their job. 
I will say, not wanting to aggravate any of my additional panel 
members, that the Federal Government is making slow progress 
though, Senator, in upgrading the wastewater treatment plant 
Blue Plains located in the district. They have come a long way. 
But they have got a long way to go.
    And as the largest point source in the entire watershed, 
almost 4 million pounds of nitrogen stands to be reduced from 
the Bay's nutrient load from this one facility. You know that. 
We appreciate the efforts that you have put into Blue Plains, 
and we ask you to continue those efforts and let us get Blue 
Plains up to the technology that it should be.
    In reauthorizing the Chesapeake Bay Program, we have the 
opportunity to capitalize on additional Federal and State 
efforts underway to make real progress in cleaning the 
Chesapeake. First, the Bay States have agreed to chart out and 
implement 2-year restoration milestones. Second, EPA is 
developing a Bay-wide TMDL. And third, the President issued an 
Executive Order directing Federal agencies to coordinate their 
restoration efforts and prioritize the Chesapeake as a national 
treasure.
    Currently, the Clean Water Act applies to all point sources 
of pollution. However, many sources of pollution fall outside 
of the scope of the Clean Water Act. To protect a system like 
the Chesapeake Bay, where the majority of nutrient pollution 
comes from non-point sources, we must make sure that all 
sources of pollutants are controlled in a meaningful and highly 
accountable way.
    And I will say, Senator, that the Navy is a model of how to 
develop their lands. They have done a tremendous job, 
especially in the Norfolk Naval Base, of doing very responsible 
development where they have really taken care of the storm 
water runoff.
    We need to build our existing partnerships and increase our 
accountability to increase our rate of success. By reassessing 
what is working to clean up the Bay and building on those 
examples, we can continue to make progress. However, we need to 
make sure that the right tools are there. So far, those tools 
have included strong intergovernmental relationships and 
partnerships and clear regulatory authority.
    Mr. Chairman, these waters of the Chesapeake Bay are the 
same passages that brought Christopher Newport and Captain John 
Smith to the new world. These waters captured the imagination 
of Lord Calvert and brought him and his descendants to 
establish what is now the State of Maryland. These waters are 
where this great Nation was conceived.
    As a former naval officer, I know that now the world's 
mightiest ships, both merchant and warships, traverse these 
waters on their way to and from ports all over the world.
    Most importantly, Senator, our children must have this 
treasure to enjoy and admire just as we have it now.
    Mr. Chairman, you are doing a great job. Please help us do 
ours.
    Thank you.
    [The prepared statement of Mr. Cosgrove follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
       
    Senator Cardin. Well, let me thank you. That was excellent 
testimony to conclude the formal presentation by the panel. So 
I thank you very much for that.
    I want to put one commercial in. We, in this committee, 
have passed out the State Revolving Fund reauthorization. It 
will be the first time, I believe, in 20 some years that we 
would have a reauthorization. It modernizes the formula so that 
it is based more on need, primarily on need.
    As a result of putting more money into the authorized 
program, every State will get more funds to deal with their 
wastewater treatment facilities. However, the percentages will 
change to meet the current needs. So not every State will see 
their percentages increase.
    We are in danger of not getting that bill moving forward, 
and we could use all of your help in talking to your Senators 
as to the importance to get that done without relieving the 
national pressure on wastewater treatment facility 
modernization and new facilities. It is difficult to deal with 
Blue Plains in isolation. There just are not enough funds out 
there to deal with all of these problems.
    So the Chesapeake Bay is very much dependent upon the 
reauthorization of the State Revolving Fund. I would just urge 
you all to talk about the urgency of getting that done. It also 
makes sense for our economy in so many different ways.
    But that was just a commercial to get that bill moving. 
Senator Boxer is working very hard with our leadership. We have 
strong bi-partisan support for it. We are pretty close to 
getting there, but we could use continued interest on that.
    Let me talk a little bit about the two issues that most of 
you have talked about, and that is the tools that you need to 
get the job done and whether there should not be some type of 
enforcement to the goals that are set.
    I think that we all agree that we should have goals set 
under the current way it is done. I mean, it is a partnership, 
it is a consensus type of goals that are established, it is 
multi-year with a way to evaluate on a periodic basis, whether 
it is every 2 years or so forth. A point is to take a census as 
to where we are and the progress that we are making.
    We also must have actionable progress in each of the areas 
that are adding to the pollution in the Bay, whether it is the 
point source pollution or whether it is airborne or whether it 
is agriculture or whether it is runoff or wastewater treatment 
facilities. And it needs to be based upon good science.
    Now having said that, I think, Secretary Griffin, you 
mentioned it, and others mentioned it, that we could perhaps 
learn a lesson from the Clean Air Act, where we have--where it 
requires the development of State implementation plans, 
recognizing full well that not one jurisdiction can solve the 
problems or our air as one jurisdiction cannot solve the 
problems with the Bay. Then there are certain expectations and 
enforcement provisions that are in the Clean Air Act.
    Can that be a model that we could use in the Chesapeake Bay 
program, recognizing that we also must provide the resources 
and tools so we can realistically achieve the objectives that 
we say?
    Can I hear from Secretary Griffin? And if anyone else wants 
to comment, fine.
    Mr. Griffin. Senator Cardin, that is a great question, and 
my answer is, unequivocally, yes. I think, having worked with 
this program for 25 years, several things are clear in terms of 
what we have to do to change the way we do business and get 
different results.
    I think one of them is to require each State to come up 
with an implementation plan that is approved by EPA and that 
they can enforce, so that you have more of a watershed focus as 
opposed to simply relying on EPA's individual permitting 
authorities, whether they are NPDES permits or MS4 strong water 
permits, whatever.
    I do not think, you know, something that has been lacking 
here is we talk about watershed-wide efforts but our regulatory 
scheme is not aligned with that, and I think this moves us in 
that direction.
    But most importantly, I think it gives each State some 
assurance that if they do their part, the Federal Government, 
which is really the only level of government that can do this 
over the States, makes sure that every other member is doing 
their part as well. I think that is the fundamental idea here. 
It is watershed-based, and everybody gets bound to develop and 
implement these plans.
    Another example in my world, dealing with fisheries is 
somewhat of a parallel. And that is that my State's Fisheries 
Commission and their counterparts across the country, when they 
develop plans with the States, if the States do not implement 
them after a series of due process requirements are met, the 
Commission can impose a plan. You know, I am thinking of our 
years together in the State with the whole rockfish issue some 
time ago.
    But I do not think it is unprecedented, certainly. Those 
are two examples. And I think it is something we really need.
    Senator Cardin. Thank you.
    Secretary O'Mara.
    Mr. O'Mara. Thank you, Senator.
    We completely concur with Secretary Griffin that it is a 
valuable approach. We want to make sure that we are looking 
holistically across all sources and that rather than just 
focusing on agriculture, really looking across transportation, 
commercial development, residential development and 
recreational.
    But one point that we are struggling with a little bit in 
Delaware, as Senator Carper said, we are kind of at the 
tailpipe of the eastern corridor, looking at air emissions. We 
have been struggling a little bit trying to have our 126 
Petition take into account the emissions that are coming from 
outside of our immediate corridor with Maryland and 
Pennsylvania, but actually going further up the line with coal 
plants in Ohio and Indiana and kind of up that way.
    So as we are looking at this holistically, I do think we 
have to have a balance of both the State responsibilities, but 
also looking at the impacts we are having on each other and 
tying ourselves together, as Secretary Griffin said.
    Senator Cardin. That would be particularly true on 
airborne. There is no question about it. Does anyone else want 
to comment on this?
    Yes, Mr. Tierney.
    Mr. Tierney. We have an example for you in Long Island 
Sound where we have a nitrogen dead zone, a nitrogen-caused 
dead zone. It is rimmed by Long Island, New York City, and 
highly populated centers in Connecticut. And unlike the 
Chesapeake Bay Program, New York and Connecticut got together 
with EPA and did a TMDL and finished it in 2000.
    We had all our permit fights, litigation and the like done 
and wrapped up by 2004. And since that time, because this is 
nitrogen and the big issue there was wastewater treatment plant 
discharges, we focused on the 102 larger wastewater treatment 
plants right around Long Island Sound. And it was an 
enforceable, binding program.
    We got into this TMDL, Total Maximum Daily Load Program----
    Senator Cardin. It was enforceable?
    Mr. Tierney. Absolutely enforceable. I am the dark angel of 
New York State when it comes to this sort of thing. I make 
people spend extraordinary amounts of money on upgrading the 
wastewater treatment plants. We are set to finish approximately 
90 to 95 percent of our reductions under the TMDL by 2014.
    Senator Cardin. What was the authority for you to be able 
to do that?
    Mr. Tierney. The Clean Water Act. Under the Clean Water 
Act, if a water body does not meet State water quality 
standards, which are also the Federal water quality standards, 
then you have to a do a pollutant budget program for it. Those 
pollutant budget programs have results. They can get 
incorporated into binding Clean Water Act permits that are 
enforceable.
    So the Newtown Creek Wastewater Treatment Plant, by the 
time it looks like it is done, the upgrade has other things in 
it too, it might be $5 billion, Senator.
    But what was distinctly different from the Chesapeake Bay 
Program is that we did develop an enforceable program. We put 
it on a schedule of compliance, and we did the enforcement to 
make things happen.
    I am not very big on voluntary programs in many ways. Sure, 
I like it, I think they are good. But for instance, I beg to 
differ with my friend from West Virginia that frequently a lot 
of the results on agricultural enforcement, agricultural land 
management, agricultural pollution eruptions, do not show up, 
necessarily, outside of a regulatory context.
    Yes, we need to help the farmers. But in New York, for 
example, we have 88 CAFOs within the Susquehanna-Chemung area, 
88 regulated CAFOs for dairy cattle. Only two would be 
regulated under the Federal program. We do it as binding, State 
Clean Water Act permits.
    So just that program itself gives you an example of how 
there is a compliance assurance context here that I think 
really could be useful if injected into the Chesapeake Bay 
Program.
    Senator Cardin. I want to get to Commissioner Douglass in 1 
second.
    In that program, do you also have on runoff issues, the 
non-point----
    Mr. Tierney. Yes. Senator, on the farms, every farm has to 
have a comprehensive Nutrient Management Plan, nonstructural 
programs and structural programs, down to 200 cows. We have, 
and I think other States as well, have storm water permits, 
polluted runoff permits, both for construction activities, 
industrial sites and city streets that are well more stringent 
than the Federal minimum.
    Senator Cardin. You have authority over that in 
enforcement?
    Mr. Tierney. Yes. And we enforce it.
    Senator Cardin. Thank you. I appreciate that.
    Commissioner Douglass.
    Mr. Douglass. Senator, it is interesting that you make 
reference to the Clean Air Act. I can tell you from some 
experiences in that because, back in the 1960s and the 1970s, 
there was a West Virginia Air Pollution Control Commission, and 
I served as Chairman of that for 9 years. And I will tell you, 
AEP and Union Carbide and the others were tough people to 
convince that new technology was out there and that they could 
prosper from the new technology.
    I certainly think that is true to an extent with what we 
are looking at as water. I alluded to technology in my 
presentation and in the lengthy--and when are we going to learn 
from England, the U.K., that there is a solution that is 
profitable out there, and that is anaerobic digestion.
    We just go back to the old technology here, and I think 
that we are wasting money when we can gather methane, we can 
gather plant foods, and there is a saleable product, rather 
than trying to dispose of sewage sludge which, again, causes us 
major problems out there.
    Senator Cardin. Thank you.
    Mr. Douglass. Well, that is my two cents worth, Senator.
    Senator Cardin. I appreciate it, Mr. Douglass.
    Mr. Cosgrove.
    Mr. Cosgrove. Senator, one thing that I hope the committee 
will keep in mind is that we always talk about agriculture a 
lot. Now, my district is a little strange because half of it is 
agriculture and half of it is suburban. And we always talk 
about farm runoff and cows and whatever, and corn that is being 
grown and fertilizer that is being used.
    But what is really missing, I think, in many cases, is the 
discussion on non-point source pollution. In Northern Virginia, 
where I grew up, it is nothing but a big parking lot when you 
look at it. It is all imperious surfaces. You look at all of 
metropolitan Washington, and it is the same way. Look at 
Hampton Roads where I live now. To a great extent, it is like 
that. And Richmond, and all along that watershed. That water 
has no place to go but into the James River and into the 
Potomac River and right into the Bay.
    I think that a lot of the progress we made is in non-point 
source pollution, and I hope that the committee looks seriously 
at that. The farmers are doing a lot. They are doing a lot now 
to try to mitigate the runoff, whether it is no till or whether 
it is BMPs or any other of the tributary strategies, they are 
doing everything that they can right now within their financial 
capability.
    But I hope that we will not forget those non-point sources 
which have a real impact on the Bay.
    Senator Cardin. I think that point is very well made, and 
on enforcement we would have to include non-point sources. 
Otherwise, I think we lose the confidence and credibility and 
probably the political ability to get this done from the other 
communities that would be directly impacted.
    Senator Brubaker.
    Mr. Brubaker. Well, thank you. I just wanted to speak to 
agriculture for 1 minute because it was referred to frequently. 
I said in my testimony that I have written hundreds of nutrient 
management plans, worked for firms that have written thousands 
in all of the States that are being referred to here.
    It is perfectly clear that there are some nutrient 
management plans that have made a significant difference in 
water quality emissions from farms, and to the opposite side, a 
significant amount of money has been spent on nutrient 
management plans on some farms that have yielded very little 
true net gain. So again one size does not fit all. There are 
some farms that are in a whole lot more sensitive position than 
others.
    I do agree with the Commissioner of West Virginia on 
agriculture, that you have got to build a productive 
partnership with the farms if you expect the real life activity 
on that farm to change in a substantive way. That farmer needs 
to believe that technology improvement or that scientific or 
best management practice is actually in that producer's best 
interest. Otherwise, you simply get a plan, a strategy, a book 
that will go onto a shelf and not be utilized.
    Senator Cardin. Director Hawkins.
    Mr. Hawkins. I think the question of how the State 
implementation plan construct under the Clean Air Act is a 
fascinating one. The reason, and this is where the District is 
an interesting example, we do a State implementation plan for 
air issues for the District. There had been a debate in the 
District about whether we would decentralize the testing of air 
emissions for automobiles. There was a consequence to our SIP 
plan that was enforceable on air emissions.
    In order to do that plan, we had to have an alternate 
strategy to make up for those emissions somewhere else that was 
measurable and knowable before the first change could be done. 
And we were looking at expanding bus routes, increasing--well, 
there were all sorts of steps.
    A SIP plan on a water base would have to have the same 
thing--non-point source and point source handled. I have run a 
farm, I have owned a farm, I know about farming. It has to be 
included. But once you have your equation to a certain amount 
of reductions, the SIP plan would work to say, if you cannot 
reach this much here, you have to reach it somewhere else. 
There is a one-for-one trade. And if you do not, we enforce on 
the whole. We expect you to meet the whole. You can be flexible 
about which tools you use to apply to reach that whole.
    The feature that we have for State implementation plans 
under the Clean Air Act, which I think we need under the Clean 
Water Act, is a standardized model for how much reductions we 
assume come from certain strategies. That is why I have 
advocated very strongly, as many people know, for standardized 
responses, not that they are not changed for urban, rural and 
suburban.
    But in the Clean Air Act model, and it is assumed how much 
reductions you make if you put in a bus line based on 
characteristics, if you do low impact development requirements 
of this amount for suburban jurisdictions, you get a credit in 
your SIP plan.
    And we are constantly improving the science, not in any one 
jurisdiction, but for the entire basin, scientifically based. 
So yes, you would account for different types of topography or 
different locations. But that way, everybody is equal and the 
science that backs of the implementation of the SIP plan that 
is enforced, that is a workable model that will make a 
difference.
    Senator Cardin. Well, I think you make a very valid point.
    I want to talk about one additional tool that we are 
looking into, and that is a nutrient trading program to provide 
ways in which you can reach the levels by basically 
underwriting the costs of nutrient reductions in other 
segments.
    Any thoughts as to whether that would be a valuable tool in 
helping reach our objectives here?
    Senator.
    Mr. Brubaker. Thank you, Senator. There is no doubt that 
the answer is yes. Within my senate district and within 
Pennsylvania we have a few trades on the books. Each one of 
those trades has been properly evaluated and, there is just no 
doubt about it, significant gain on nutrient reductions and 
huge economic gains to the originating sewage treatment plant.
    One of them is Mount Joy, Pennsylvania. It is the Brubaker 
Farm. Same last name as me but not a family relative, but a 
good friend. Seven hundred dairy cows. With a neighboring 
sewage treatment plant, they did a trade where significant 
modification was done on that 700-cow dairy, and in exchange, 
enough nitrogen and phosphorous reduction and sediment 
reduction was verified that, ultimately, that local sewage 
treatment plant that needed to make upgrades did not need to 
make the type of upgrades that were being required.
    It saved the sewage treatment plant money and took some of 
those dollars and put them back into the farm operation to 
allow the farm operation to move down more significantly into 
their environmental compliance.
    Senator Cardin. That seems like a logical help because you 
can get savings in agriculture. The problem is the economics 
for the developers. The economics make sense, to help the 
farmers out.
    Mr. Tierney.
    Mr. Tierney. But Senator, if you are talking about 
everything by everybody everywhere, that means every farm needs 
to be done, that means every retrofit needs to happen, that 
means all of the air sources need to be addressed. So in a 
context where the bar is so high, this poses a problem for you 
to consider going forward.
    Where the non-pollutant reductions are so high, you may 
very well need both the wastewater treatment plant and the 
pollutant reduction program that my friend from Pennsylvania 
just spoke about. So if you need it all, trading amongst point 
sources allow more to happen in one place than another, poses a 
problem, I think, going forward, to reaching that ultimate end 
line where people can focus.
    Senator Cardin. I think, though, that we want to have the 
numbers make good science that is achievable. So we do not want 
to set the bar so high that it is unrealistic that we are going 
to be able to achieve that. On the other hand, we can certainly 
do a lot better than we done in the past meeting the goals, at 
least as we are right now.
    Doug.
    Mr. Cosgrove. Senator, at the risk of alienating my friend 
right here, we all have to live in the real world. And 
agriculture is becoming more and more of a very expensive real 
world. And if there are ways to reduce the overall impact 
through trading, then I think that has to be part of the 
solution.
    Granted, in a perfect world, everybody would be everything 
they possibly could everywhere. But the dollars involved, 
especially for that small farmer, will be the difference 
between are they going to do that, or are they just going to go 
away. And if they go away, what is going to go on their place? 
More impervious ground cover, houses or whatever. We have to 
look at that.
    Senator Cardin. Senator Brubaker.
    Mr. Brubaker. Thank you. Very briefly, my friend to my left 
makes a very good point. But in that case in Mount Joy that I 
spoke about, pound one of reduction was not offset with pound 
one of gain. There were a number of pounds that were removed, 
and then the balance beyond that was ultimately traded.
    Senator Cardin. Secretary Griffin.
    Mr. Griffin. Mr. Chair, I would only make two quick points. 
First of all, I do not think nutrient trading programs, like 
any trading program, work unless you have an effective cap.
    Second, if you are talking about trading between regulated 
sources, i.e., at this point, essentially, point sources and 
unregulated, at least in the context of agriculture, non-point 
sources, it seems to me it is not an apple. It is an apple and 
an orange in the sense that you are foregoing more assured 
enforceable requirements on a point source for a non-point 
source where there is no assurance that it is going to be, at 
least from a regulatory standpoint, implemented.
    That is just something that, you know, I certainly 
appreciate the comments that others in this panel are making 
about the marginal operation of a lot of farms these days, and 
there are some costs that have to be absorbed. But there are 
certainly ways to deal with that.
    Senator Cardin. You raise the last question that I had, and 
that is non-point sources. It is a challenge in the Chesapeake 
Bay how we get a handle on non-point sources. Do any of you 
have any suggestions on more enforceable ways on non-point 
sources?
    Director, you seem to be the popular one here on 
developers. Let us hear from you.
    Mr. Hawkins. I do. And I do not think this is much 
different than what we did for technology-based standards under 
the Clean Water Act of 1972. The question was the same.
    Prior to 1972, the only way we were figuring out how to 
reduce pollutants to water bodies was to try to reason from the 
water body and scientifically prove back to the discharger, in 
every jurisdiction differently. It was exceedingly difficult to 
do, and we had very little improvement to water quality from 
1956 to 1972.
    The decision in the Clean Water Act in 1972 was to have 
technology-based standards that were stable, that asked what is 
the property doing to discharge, not what the receiving body 
can handle. If, in section 117, we establish standardized 
requirements for development anywhere, so a suburban 
development is taking over a farm in any of these jurisdictions 
with some grades to show differences in topography and 
otherwise, but there is a standardized requirement in every 
place, that would then become the requirement that is a 
technology onsite the same way an end of pipe discharge 
requirement is at every metal finishing plant of a certain kind 
no matter where it appears in the country.
    I think--we have requirements in the District, we built it 
into the Code. My review is that it is the rules of the game. 
Create the rules of the game to have the outcome. That does not 
favor my jurisdiction over anybody else's. It is a clean game 
between us, because we have at least a clear set that everybody 
must do. So a developer does not get a better deal somewhere 
else.
    Senator Cardin. Well, that also applies to governmental 
development, whether it is infrastructure, roads----
    Mr. Hawkins. Absolutely. And in the District, green 
building requirements are now built into the requirements. Now, 
every District building must be LEED silver. In 2012, every 
commercial, private, must be LEED Silver. It is not a rule of 
the game----
    Senator Cardin. We are moving in that direction at the 
Federal level also. I think it makes sense. Whether we will be 
able to do it in our highway program has yet to be seen. That 
is still on--well, there are real intentions to do that. We 
will see how the economics of this all plays out.
    Secretary O'Mara.
    Mr. O'Mara. Thank you, sir. In Delaware, we are trying to 
do a lot of work on our pollution work control strategies. We 
are really looking at local land use decisions and really 
working with the counties and all those other stakeholders, 
whether that is implementing buffers or other mitigation 
techniques.
    One of the concerns that we have is how do we coordinate 
across our jurisdictions so that we do not create kind of 
perverse economic development incentives to develop in some 
States and not in others because of these different types of 
requirements. And these are all authorities that the EPA does 
not currently have that we have kind of challenge of trying to 
implement at the State level in collaboration with the counties 
and municipalities to try to get at some of these non-point 
sources.
    But whether it is, you know, a golf course, or some kind of 
a residential or commercial development or agriculture, having 
some kind of common standards. And then, as Director Hawkins 
was saying, making sure that we are using the best science and 
giving the right credits for the different types of approaches.
    But we have had some luck. You know, there are some kinds 
of legal questions about the approach, but having that 
stakeholder behind you when getting to local land use 
decisionmaking we found to be absolutely key.
    Senator Cardin. I think Director Hawkins raises a very 
valid point about having uniform standards of expectation using 
best science so that deals with the non-point sources. There 
are also mitigation issues that we could talk about, including 
the building shorelines and other programs that have been very 
successful, a combination of which could make a real impact on 
non-point sources.
    Does anyone else want to comment?
    Certainly, Commissioner.
    Mr. Douglass. Through my activities over the years, I 
learned a long time ago that I am better off if I stay with the 
facts and make the decisions on the best science that is 
available. It is for that reason that I alluded in my 
presentation that I initiated a water sampling program on the 
Potomac River in West Virginia back in 1998.
    I have a 10-year projection on that, or facts on that. We 
were sampling those various streams in West Virginia from one 
to five times a month, and I think you will find it interesting 
what we have found and we are publishing that report. It should 
be out momentarily.
    But again, this is what I have based my decisions on in 
West Virginia. And of course this information is available to 
EPA, and we are very close to several agreements right now that 
you alluded to here on clean water nutrients and the other 
effluents that are in that water.
    Senator Cardin. Well, we appreciate that. I was a little 
bit reluctant when I was told that were going to have seven 
people on the first panel. I was happy because it means that 
there are seven jurisdictions that are part of the Chesapeake 
Bay effort, which gives us a lot of power and interest.
    I was concerned about how we would interact with seven 
witnesses at one time. I must tell you, I found this panel to 
be very, very helpful and very informed. I really do 
congratulate all of the jurisdictions for their leadership on 
this area.
    This has truly been a commitment in which the States and 
the District of Columbia have taken on the real responsibility 
and have brought in the Federal Government as a partner. But it 
started with our States willing to make the tough choices to 
deal with the Bay.
    It was not easy for any State. But when you live in 
Virginia, or you live in Maryland, and you live on the shores 
of the Chesapeake, it is a constant reminder. If you live in 
New York or you live in Pennsylvania or Delaware or West 
Virginia, it is not quite as easy to understand the impact that 
you have on this incredible estuary. So I really do thank all 
of you for your leadership on this.
    And Senator, since you are a senator, I will give you the 
last word on this.
    [Laughter.]
    Mr. Brubaker. Well, thank you sir. I just felt the burning 
desire just to make one very last brief comment regarding 
trading. Farms, as we all know, are businesses. Dairy today, in 
Pennsylvania it costs about $16 to make 100 pounds of milk, and 
producers are getting $12 for it. Dairy farmers are losing tens 
of thousands of dollars a month.
    Farm families, and we have 63,000 farm families in 
Pennsylvania, farmers want to do better environmentally. But 
their business has to yield a level of profitability that will 
allow them to come to the table. Right now, in certain business 
sectors of agriculture, economic profitability does not allow 
them to come to the table.
    Trading provides that economic stimulus for producers to 
step up and say, yes, I can do better. And it is not government 
money. It is money coming out of a system. So it is a true 
gain, and I would just argue as strongly as possible that it 
ought to be a tool in the toolbox.
    Senator Cardin. Well, thank you for that comment.
    And again, let me thank all of our panelists for their 
testimony.
    [Recess.]
    Senator Cardin. Let me invite the next panel forward.
    We are pleased to have Alan Wurtzel, who served as the CEO 
of Circuit City until 1986. He is currently a Trustee of the 
Chesapeake Bay Foundation. I think it is also worth noting that 
Mr. Wurtzel once served as the legislative aide to former 
Senator Joe Tydings, who held the U.S. Senate seat from 
Maryland that I am privileged now to hold. So Mr. Wurtzel, it 
is a pleasure to have you before the United States Senate.
    Brent Fults is the Principal, Nutrient Land Trust, Earth 
Source Solutions and its successor organization, the Chesapeake 
Bay Nutrient Land Trust, where he has experience with markets 
for environmental credits.
    Joe Gannon, III is Vice President of Envirocorp, a water 
quality testing company based in Delaware. Mr. Gannon is also a 
Board Member of the Nanticoke Watershed Alliance.
    Finally, we have Marty Mitchell, Vice Chief Executive 
Officer of Mitchell & Best Homebuilders. Mitchell & Best is 
headquartered in Rockville, Maryland. It is a pleasure to have 
a Maryland company represented here at the table.
    Mr. Wurtzel, we would be glad to hear from you.

 STATEMENT OF ALAN L. WURTZEL, CHAIRMAN EMERITUS, CIRCUIT CITY 
                          STORES, INC.

    Mr. Wurtzel. Senator, thank you very much. Thank you for 
inviting me to testify.
    I am here on behalf of the Chesapeake Bay Foundation, and 
it is, as you pointed out, a bit of deja vu because I did work 
for Senator Tydings as a legislative assistant in his first 2 
years in office.
    I would just note that in those days this building was 
known as the New Senate Office Building, and Senator Dirksen 
was the Majority Leader. Actually, Joe Tydings' first major 
legislative effort was to try to derail Senator Dirksen's 
attempt to overrule the one man-one vote decision. So it was a 
privilege to watch Senator Dirksen on the floor almost every 
day trying to bring forth his constitutional amendment.
    Getting back to the business at hand. The Chesapeake Bay 
Foundation has been working to save the Bay since 1967, over 40 
years. We focused public attention on the deplorable state of 
the Bay and have been there every step of the way as Congress 
and the Federal Government and the States have worked together 
to solve the problems of the Bay.
    CBF currently has 225,000 members spread across the 
watershed and a staff or approximately 100 talented policy, 
education and restoration specialists working out of locations 
in Maryland, Virginia, Pennsylvania and the District of 
Columbia.
    Meeting in this room brings back memories of Senator Muskie 
who led the effort in 1972 to produce the Clean Water Act. The 
opening sentence of the Clean Water Act says, ``the objective 
of this act is to restore and maintain the chemical, physical 
and environmental integrity of the Nation's waters.''
    Mr. Chairman, I can tell from your very perceptive opening 
statement you also believe that these were laudable objectives, 
and while a lot has been done, we have not achieved the 
objectives that Senator Muskie and his colleagues put forward 
in 1972.
    Partly it is because the population of the area, as you 
pointed out, almost doubled, and a lot of it has been paved 
over. There has been a lot of good work. But we have not been 
able to achieve the objectives of a chemically, physically and 
biologically clean Bay.
    I am going to skip my discussion about some examples. You 
know very well about the dead zones in the Bay and the fact 
that there are so many nutrients that there are lot of areas 
where there is no dissolved oxygen in the water.
    The various jurisdictions have tried, in 1982, 1987, 1992 
and as recently as 2000, to set voluntary standards to reduce 
phosphorous, nitrogen and sediment. And none of those efforts, 
including the 2000 effort, have been successful in achieving 
the objectives.
    So one has to ask, with all the goodwill, and all the work 
and all the effort, why has there not been more progress? I was 
delighted to see the seven jurisdictions here today. They were 
all supportive to amendments to the legislation to create more 
teeth, to create more accountability, to create more results. 
What it shows, I think, is that there is a systemic issue here. 
And the systemic issue is the structure of the Clean Water Act 
itself.
    As you have pointed out, the Chesapeake Bay Foundation 
believes that most of the low hanging fruit, most of the 
progress, has been made with point source pollution. Maryland 
and Virginia have stepped to the plate, and Pennsylvania, with 
very large appropriations to deal with point source pollution, 
both industrial as well as sewage treatment. We have made a lot 
of progress, and there is more in the works. But still the 
levels of phosphorous and nitrogen in the Bay continue to be at 
least constant and may be slightly rising over time.
    And so what we need to do is begin to address our non-point 
sources. You pointed out, and I was pleased to see, all seven 
jurisdictions represented here seem to agree.
    The next thing I was going to say is that the way to deal 
with non-point sources is to follow the model, or to use the 
Clean Air Act as a model. You obviously have that on your mind 
because you raised that question yourself. The Chesapeake Bay 
Foundation strongly believes that it is a good model for 
attacking the non-point sources in the Bay.
    We would encourage you and your staff to examine that model 
carefully and tailor the successful approach there to the Bay. 
The Clean Air Act has reduced air pollution by 50 percent. We 
believe that is largely because of the way the Act works. It 
creates accountability, State by State. States, as you know, 
must limit the sources of air pollution, and if they do not 
meet the standards, they have to go back to those sources and 
require further reductions of air pollution.
    We need to do similar things with non-point sources, 
terrestrial non-point sources, in the Bay. To be more specific, 
we have eight recommendations which are in my testimony but I 
will outline them very quickly here.
    Senator Cardin. We will put all of your statements, full 
statements, in the record----
    Mr. Wurtzel. Thank you. I assumed that.
    Rewrite section 117 of the Clean Water Act to create a 
national pilot program for clean water. I mean, this is a 
nationwide problem. I have in my statement some statistics, but 
it is like one-third of the rivers, and one-half of the lakes, 
and one-third of the estuaries that are not swimable or 
fishable. This is nationwide.
    So this problem, while we are focusing on the Bay, is not 
limited. Obviously the Clean Water Act is a national act. We 
are recommending that you possibly make the Bay a pilot project 
and give us a few years to show what we can do as a way of 
leading the Nation to improving other waters, by using the Bay 
as a pilot.
    One, require that the TMDL contain separate loads for 
permitted, that is sources that require a permit such as point 
sources, as well as non-permitted or non-point sources, so that 
we look at those separately and begin to address the non-point 
sources separately. And then divide them into whether it is 
runoff, or agriculture, or whatever.
    Two, require the States of the Bay watershed to submit to 
EPA State water quality implementation plans, similar to what 
is required under the air pollution act.
    Three, require the States to submit reports every 2 years 
detailing the progress made in achieving the pollution caps.
    Four, provide meaningful consequences if a State fails to 
meet its objectives.
    Five, authorize citizen suits against the States for 
failure to comply and against EPA for failure to respond 
appropriately where the States have not made adequate progress. 
Over the last 8 years, we feel the Federal Government has not 
done a good job using the powers of the Act to enforce the 
standards it has set.
    Six, we agree with your suggestion of an interstate 
nutrient trading program, and we think that cap-and-trade is a 
way to effectively share the burden and shift the burden to 
those places that can most easily afford to meet the standards 
of water quality.
    And finally, to authorize a new competitive grant program 
that supports local governments which in turn can support the 
localities and the farmers and the other individuals that are 
required to make difficult changes. This kind of a grant 
program will help to facilitate the implementation of the 
tougher standards.
    So in conclusion, I encourage you and the other Senators on 
this committee to embrace the legacy of Senator Muskie and the 
other environmental visionaries of the past generation. The 
Clean Water Act set the objective--restore and maintain the 
chemical and physical and biological integrity of the Nation's 
waters. As I said, we have made progress, but a lot more needs 
to be done.
    The focus should be, we think, on non-point sources so that 
our streams, rivers, lakes and bays become both fishable and 
swimable again.
    Thank you.
    [The prepared statement of Mr. Wurtzel follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    Senator Cardin. Thank you very much for your testimony.
    Mr. Fults.

 STATEMENT OF BRENT L. FULTS, MANAGING MEMBER, CHESAPEAKE BAY 
                    NUTRIENT LAND TRUST, LLC

    Mr. Fults. Thank you, Senator Cardin and members of the 
subcommittee who will hear this testimony.
    I am Brent Fults, Managing Member of the Chesapeake Bay 
Nutrient Land Trust, known as CBNLT. Thank you for the 
opportunity to discuss an important market-based approach to 
reducing the level of nutrient pollution entering the 
Chesapeake Bay.
    We are all familiar with the environmental challenges faced 
by the Bay, most notable of which is the unsustainable loading 
of nutrients and sediments. My testimony will provide a brief 
history of the nutrient trading programs, the milestones in 
Virginia, the roles that CBNLT has played, and the importance 
of private market-based solutions.
    I have spent 22 years navigating development and 
regulations. In 2000, my business partner and I founded 
EarthSource Solutions to provide innovation to the growing 
green economy. In 2005, the Commonwealth created a nutrient 
exchange program aimed at point source reductions. That 
legislation also created the opportunity to create non-point 
nutrient reductions known as offsets.
    CBNLT was founded in 2006 as a response to my core 
environmental values and the growing concerns for the Bay. 
CBNLT began to develop land stewardship strategies that reduced 
nutrient loads and generated offsets. In September 2008, CBNLT 
became the first private entity in Virginia to generate and 
offer certified nutrient offsets.
    These initial offsets were generated through land 
conversion practices on a 110-acre core portion of a 904-acre 
heritage farm known as Wildwood Farms. The nutrient offsets 
derived at the farm have been implemented in advance and 
sequester 100 pounds of phosphorous and 376 pounds of nitrogen 
annually. In a 30-year period, Wildwood Farm will reduce a 
combined phosphorous and nitrogen load of over 14,000 pounds. 
In a 100-year period, 47,000 pounds will be reduced.
    In 2008, CBNLT identified the need to expand the use of 
offsets to address nutrients associated with storm water. This 
opportunity would require a legislative effort. The resulting 
legislation received bi-partisan support and was unanimously 
passed on all fronts. The legislation took effect on July 1, 
2009.
    There are several important points of the legislation. 
Offsets must be generated in the same tributary as the 
permitted activity. Offsets represent reductions above and 
beyond existing tributary strategies. And offsets may not be 
used in contravention of local water quality regulations. This 
represents a leading first step model by the Commonwealth for 
addressing nutrient pollutions resulting from storm water 
runoff.
    In a little over 3 years, Virginia has expanded from a 
broad vision to an on-the-ground implementation. This effort 
has set the bar high. Virginia's proactive approach has 
resulted in verifiable opportunities for private market 
participation in the green economy. This private investment in 
the environment results in multiple public benefits. It is a 
real solution.
    Although still opportunities and barriers exist, should a 
multi-State trading program be developed, it would be important 
to establish a level of equivalency between the States with 
regard to the generation of offsets. As Federal funding is 
directed toward the clean up of the Bay, it is important that 
funds are distributed equitably. It may even be possible for 
the development of some sort of nutrient neutral standard.
    It is important to note that this committee, the 
reauthorization of updated strategy, and equitable stakeholder 
participation can create a private offset market. First step 
models start somewhere. The obligation for change is now.
    We still need to be creative in seeking potential uses for 
offsets as they will prove essential to the Bay-wide clean up 
strategy. As stakeholders strive to achieve water quality goals 
for the Chesapeake Bay, a private nutrient credit market will 
be essential to success. The implemented offsets will provide 
real on the ground reductions that are validated and are 
retired for a permanent change.
    CBNLT follows a belief that private markets working with an 
appropriate regulatory framework is the most effective 
approach.
    I hope as the subcommittee continues its legislative 
efforts toward the reauthorization of the Chesapeake Bay 
Program that it carefully considers the opportunity for public-
private partnerships. I encourage the committee to review my 
written testimony for more detail and call upon CBNLT for 
further information.
    Thank you for this opportunity.
    [The prepared statement of Mr. Fults follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    Senator Cardin. Well, thank you very much for your 
testimony. It is very helpful to us.
    Mr. Gannon.

 STATEMENT OF JOE GANNON, III, VICE PRESIDENT, ENVIROCORP, INC.

    Mr. Gannon. Thank you, Chairman Cardin, for the opportunity 
to appear today and to provide my testimony.
    I would also like to thank Senator Carper. Although he had 
to leave, I would like to thank him for mentioning me earlier. 
And also, Secretary O'Mara, hopefully he stuck around, but I am 
not sure if he did, I would like to thank him as well.
    I fear that my testimony may be slightly anecdotal in 
comparison to the testimony that has been provided, especially 
by the Secretaries from the States earlier.
    Basically, I grew up in Delaware, and I have lived 
surrounded by both the bays, the Delaware Bay and the 
Chesapeake Bay, for 29 of my 33 years. I have a degree in 
biology from the University of Pennsylvania at West Chester. I 
am also a husband, a father of two, a business owner, a 
scientist and a naturalist. I have deep family ties to the 
Chesapeake Bay as well as the Delaware Bay.
    My grandfather was born and raised on the Tuckahoe River, a 
major tributary to the Chesapeake Bay. I grew up kind of right 
on the cusp of the time when you could still swim in the ponds 
of Delaware. In their current state today, seeing someone swim 
in the ponds is a rare occurrence. As a little kid, I vaguely 
remember swimming in local ponds. Today, I would not let my 
kids go near a pond for fear of what may lie within and the 
consequences that may befall.
    I look at our ponds as that canary in the coal mine over on 
the Eastern Shore. Our ponds and tributaries are the first 
victims of our constant and enduring pressure on the 
environment. My role at Envirocorp Labs is Vice President of 
the laboratories. It is actually a small family business that 
was started by my father back in 1984. It was born out of 
wanting to take an active role in monitoring and supporting the 
wastewater treatment plants in Delaware, on DelMarVa.
    As I said, it was started by my father as a modest venture 
that saw him up early, collecting samples by himself and at the 
few clients he could support. Today, that business has grown to 
13 employees and stands as one of the leaders in environmental 
business in the watershed and the surrounding region.
    We perform analytical testing for everything from point 
source wastewater treatment plants to homeowners for drinking 
water, and also, recently, the Bay Restoration Fund through the 
septic analysis for nutrient reduction. We also routinely 
analyze storm water, soils and sludge, and have participated in 
several projects in support of DNREC's monitoring of the 
Delaware Bay and its tributaries.
    For the Bay Restoration Fund, also known as BRF, we perform 
sampling and analysis for four of the highest disbursed units 
participating in the program, which means that a large 
percentage of that data that is generated to support BRF is 
performed right there in our laboratory.
    In the data we have seen and generated, the effluent from 
home septics far exceeds anything being discharged by a point 
source treatment facility in respect to the variability of 
nutrient loading. Though the volume of water pales in 
comparison to the millions of gallons a day flowing over that 
weir from your local wastewater treatment facility, the high 
nutrients being placed back into the water cycle from home 
septics cannot be denied.
    The effort of the BRF to introduce secondary treatment to 
home septic is commendable and certainly a step in the right 
direction. I am not privy as to the existence of a study 
comparing non-treated standard septic to units that are treated 
using the secondary treatment devices. However, I am confident 
that the reduction achieved on a whole is a significant 
contribution.
    I will add a caveat to that statement with the fact that we 
found that the units must be properly maintained to meet the 
goals of the BRF. A properly maintained unit is capable of 
meeting the reduction goals. However, it stands that the units 
can quickly fall into a state where reduction goals are not 
being met.
    I would propose that a review of the BRF program is 
necessary with the valuable input of the scientific community 
and the incorporation of specific organized monitoring as its 
primary goal.
    Wow, I cannot believe I went through 4 minutes that fast.
    [Laughter.]
    Mr. Gannon. I will skip a couple of things then.
    Our tie to the Bay Program at Envirocorp is really in 
recognizing the importance of injecting good science into the 
Bay's efforts. We donate staff and volunteer over $50,000 
annually supporting analytical services to the Nanticoke 
Watershed Alliance Creekwatcher Program. It is formulating a 
data baseline of one of the major tributaries feeding into the 
Chesapeake Bay, and that is the Nanticoke Watershed.
    The Nanticoke Watershed Alliance is just what it says. It 
is an organization that is in partnership with agriculture, 
industry, volunteers, advocates, municipalities, industry, 
regulators and other non-profit groups. The NWA seeks to 
develop and implement actionable plans for lessening 
environmental pressures and impacts within the watershed 
through community-supported and wholly volunteer effort to 
bring the Creekwatcher Program to the Nanticoke.
    They monitor 40 sites in the watershed, covering a huge 
geography of nearly 370,000 acres and crossing political 
boundaries that are historically very difficult to work across.
    In addition, funding targeted at localized watershed groups 
for the restoration project has seen, the potential has seen 
great leaps forward for the implementation of projects that 
will help the health of our waters, support for all the 
tributaries.
    A uniform creek watch effort by the Bay Program could 
vastly improve the knowledge base about the health of the 
water. Likewise, Federal support put into action through local 
groups is an organic and proactive way to help achieve water 
quality goals.
    Bringing all interested and involved parties to the same 
table to discuss a plan, while at the same time involving them 
in the process, is central to NWA's goals. Nanticoke Watershed 
Alliance's strategic intent is to build one of the strongest, 
most efficient, most accurate citizen volunteer organizations 
on the Bay. And NWA has successfully grouped together 
businesses and municipalities and citizen advocates in that 
effort.
    This is the key factor to the program's success and 
ultimately one that I feel would be the linchpin for turning 
the degradation of the Bay around. The coming together of those 
that make a living within the watershed, from farmers to major 
corporations, with those that are attempting to protect it from 
further decline, is going to be essential.
    We need these bridge organizations at the forefront because 
they are the ones doing all the legwork for this effort. At 
some point, throwing money at the problem will not be enough. 
We will need the passion and due diligence of these grassroots 
organizations. But we will, at the same time, need the full 
cooperation and investment of the infrastructure, from the 
farmers to the treatment plants and the industries and the 
regulators.
    What leaves the premises 365 days a year needs to be at all 
times in the best interests of the tributaries and, ultimately, 
the Bay. We need to reduce our nutrient loads while at the same 
time making it easier for operators and farmers to do so.
    We can no longer impose stringent guidelines without at the 
same time giving the permit holders the technology to achieve 
the necessary reductions and lessen their impact. To do so only 
perpetuates an already declining situation.
    Funding research that explores these technologies and 
experiments with innovative ways to reduce our impact or treat 
the Bay's waters is going to be crucial and support worthy in 
this effort. Funding for advocacy organizations is essential to 
their success. Monitoring their efforts, however, is equally as 
crucial. Some would say more so since it helps the legitimacy 
and garners public support, perhaps the most crucial part of 
the pie.
    Without a cohesive, concerted, well funded, supported 
effort, they cannot continue to do the groundwork. They cannot 
continue to bridge the relationships that are becoming all the 
more important in the Bay's effort. The fostering of that 
relationship between industry and advocacy is where the Bay 
effort will be won.
    Last night, as I was preparing for today's testimony, my 
son asked me to help him with a little jigsaw puzzle. It was an 
easy puzzle, 100 pieces, perfect for a 5-year-old. I had not 
done a puzzle in years, but I remembered the old trick about 
finding all the edge pieces and then filling in the middle.
    As we worked our way through the edges, and having this 
testimony on my mind all the while, I realized that the work 
being done by non-profits, volunteers and researchers in 
support of the bill is akin to filling in all the edge pieces 
to that puzzle.
    To finish the job in an accurate and timely manner, it 
really starts with the groundwork laid in the initial stages 
out there on the edges. This is the dirty work--the clean-ups, 
the early morning samplings, the bird counts, the men and women 
in the labs cranking out nitrate after nitrate after TCAN, 
after inter-caucus. This is the most important work.
    The non-profits and volunteers are out to change hearts and 
minds, not because they are looking for financial gain or fame 
but because they inherently believe they cannot sit by and 
watch the Bay decline even further.
    So we work the edge, we lay the groundwork, all the while 
the organizations supporting the Bay are showing us what is on 
the box, allowing us to see what the final picture could be if 
we put in the time and effort.
    Without that picture, we are just shuffling pieces around 
the table like a 5-year-old, watching and waiting for Dad to 
give us the guidance. We need his help, but we also need to 
learn to finish the puzzle on our own with his support.
    Bringing together all of the remaining puzzle pieces for 
the Bay is where the supporting organizations truly will shine. 
Ultimately, their investment of time, funding, both public and 
private, organization and passion, will guide us toward placing 
that final puzzle piece.
    I was also reminded looking at my son sit there that we are 
just borrowing the Bay from his generation.
    Thank you for your time.
    [The prepared statement of Mr. Gannon follows:]
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    Senator Cardin. Thank you for your testimony.
    Mr. Mitchell.

  STATEMENT OF MARTY MITCHELL, VICE CHIEF EXECUTIVE OFFICER, 
                  MITCHELL & BEST HOMEBUILDERS

    Mr. Mitchell. Good afternoon, Chairman Cardin. I appreciate 
the opportunity to testify before you on the Chesapeake Bay 
Program.
    My name is Marty Mitchell. I am a second generation 
homebuilder from Rockville, Maryland. Our family company, 
Mitchell & Best, has been building homes in the Washington area 
for over 34 years. I have been actively involved in land 
development for 16 years. In the past 10 years, I have 
developed two Environmental Communities of the Year in the 
suburban Maryland area. I am also a lifelong resident of 
Maryland who regularly enjoys the benefits of the Bay.
    Home builders have taken proactive steps to be a part of 
the solution to restore and maintain the Bay, such as, in 2002, 
launching Builders for the Bay, a new partnership encouraging 
the use of Bay friendly site design principles that reduce the 
environmental effects of residential and commercial 
development.
    Builders for the Bay was ultimately able to identify and 
remove impediments such as mandates for wider streets, 
sidewalks on both sides of the streets, and facilitate use of 
practices and principles that reduce environmental stresses on 
the watershed.
    Home building and development activities across the 
watershed have been regulated at the Federal, State and local 
levels for many years, and those regulations have become more 
stringent over time.
    The requirements include sediment and erosion control plans 
and installation and maintenance of best management practices 
or BMPs to keep polluted storm water from discharging to the 
Bay. When these are properly installed, they do work. I have 
been actively involved in a project that had monitoring reports 
that shows the results of those BMPs.
    Maryland's 2007 and pending Storm Water Management Program 
changes have added enormous costs to developing property. In 
many parts of Maryland, the cost of gaining approvals and 
developing land is greater than the value of that developed 
property.
    This is somewhat a function of the current economic times. 
But with the added layer of the new storm water management 
requirements in Maryland, it will be a long time before either 
new development or redevelopment has a profit margin on the 
land development side. This is a concern across the country as 
we have seen how stopping housing and development has a 
devastating impact on the local and State budgets.
    The number of initiatives currently underway to improve the 
Bay is many, and they cover a broad spectrum of pollutants, 
areas and activities. Obviously, the Chesapeake Bay Program has 
been working for a long time to restore Bay. Unfortunately, we 
have only had marginal progress because of too much emphasis 
placed on a small cause of the problem. In order to succeed, 
the program needs to properly account for the population growth 
and infrastructure growth that will occur and continue to occur 
in the Bay watershed.
    The second initiative impacting the Bay and the Program is 
the low impact development standards that are a major tenant of 
the restoration program and the developing TMDL, or Total 
Maximum Daily Load, for the Bay. Our industry has had no 
opportunity to provide input to the Bay Program on our 
experience with LID, and yet the Chesapeake Bay Program Office 
is actively promoting this to the States as an aspirational 
goal of no-discharge development.
    I have personally been involved with a project in Prince 
George's County where a low impact development failed 
miserably. You need to have the right types of soils, and in 
many cases low density development, to truly have it be 
successful.
    Reviewing the initiatives, I have a number of suggestions 
to make to the committee regarding the Bay's restoration.
    First, the greatest emphasis must be on the biggest sources 
of pollution, including runoff from existing urban areas, 
sewage treatment plants, combined sewer and storm systems, and 
of course agriculture.
    Second, efforts must be effective, efficient and 
affordable, and as pointed our earlier, based on good science.
    Third, maximum flexibility, options for permit compliance 
and workable outcomes are necessary. For example, as has been 
said earlier, interstate water quality trading is crucial to 
reduce the overall costs of bringing down the pollutants in the 
Bay while also ensuring that agriculture runoff is addressed.
    In addition, we have had discussions with the Maryland DNR 
about the permitting of new development. Today, it is totally 
focused on the project itself as opposed to the watershed or 
the tributary. We believe there are better opportunities at 
lower costs that have greater impact on improving the Bay by 
expanding the viewpoint to the tributary or watershed as 
opposed to the project itself.
    Fourth, immediate and broad opportunities for stakeholder 
input must be provided. A clear and continuing plan to include 
the public is vital to the effort's success.
    Fifth, the restoration program will sorely test the Bay 
States' economy. Subsequently, substantial Federal support for 
this program is imperative.
    I thank you for allowing me to express my concerns and make 
a few suggestions on the restoration of the Bay. I would be 
happy to address any questions.
    [The prepared statement of Mr. Mitchell follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
      
    Senator Cardin. Well, again, let me thank all four of you 
for your testimony. Also, thank you for your patience. This has 
been a long hearing, and we appreciate very much your testimony 
and participation.
    Mr. Mitchell, let me start, if I might, with you. You have 
an excellent reputation in the community for being sensitive to 
the environment, and we appreciate that very much. You also 
raise a very valid point on non-point sources that there is a 
lot of existing construction out there, and it is causing a 
great deal of difficulty. We do not want to stop new 
development. New development is important for our economy. It 
is important for quality of life, quite frankly.
    The approach that has been suggested is that we would have 
a dual standard. For new construction, they would have to meet 
a higher standard. Now, you do raise a valid point. Some of the 
regulations are counterproductive if you are dealing with 
sidewalks or width of roads. So some of this could be gained 
just by eliminating some of the regulations that are 
counterproductive to the goals that we are trying to succeed 
in, but it is bound, though, to have a higher standard for new 
construction.
    Is that acceptable to the industry? That, as we get better 
science and technology, we establish tougher standards for new 
development whereas existing development may very well escape 
those types of retrofits?
    Mr. Mitchell. I think there is a certain acceptance level. 
We understand that new development requires standards that 
existing retrofits do not. I think our position would be that 
if it is in a smart growth area, a priority funding area, the 
difference or the various levels would not be the same.
    One of the unfortunate things that seems to be occurring is 
that the incentives for smart growth and redevelopment, 
particularly in some of the issues that we have had with the 
Storm Water Management Program in Maryland, is going to make it 
more and more difficult to redevelop those areas where we do 
want the development to go.
    You know, we would be happy to work with you to try to 
figure out a way that this sort of dual program might work for 
the industry.
    Senator Cardin. That is a very valid point. As we look at 
smart growth, we are trying to affect where development will 
take place. It may not be in the area where you can mitigate 
the most, as far as new construction is concerned. And how do 
you deal with the holistic approach to what you are trying to 
do with development, mindful of trying to get the maximum 
advantage runoff pollution?
    Mr. Mitchell. One of the things I mentioned, we had a 
conversation with Secretary Griffin, actually, of DNR and we 
talked about the fact that you get to an incremental point on 
new development whether it is in the right location or the 
wrong location, whatever you want to look at it, that you just 
cannot make another step, and it would cost you tens of 
thousands of dollars to make that additional improvement for 
little impact.
    I can remember one of the first jobs I did almost 20 years 
ago, there was a debate on how much of the BMPs that we wanted 
to have onsite, and the county had a program where we could go 
offsite and do a stream restoration program within the same 
watershed and the environmental benefits for the area were much 
greater.
    That is where I kind of learned about the fact that in 
suburban Maryland areas, there are locations 40 or 50 years ago 
where the bottoms of the streambeds were paved over. And I 
think that there could be a working through the permit process, 
say, OK, the incremental benefit on the new construction is not 
as beneficial as going back to retrofit, whether it be stream 
restoration, cutting down erosion on a stream, removing these 
concrete bottoms to the streams, or other various things that 
are available to us.
    Senator Cardin. We do have some concrete streams still 
remaining and there is some work being done to try to correct 
that. It is not easy in some places.
    Mr. Mitchell. You are right.
    Senator Cardin. But I think the way you are approaching it 
is right. If we are going to be looking at hard standards on 
the Bay, then as we look at the non-point sources and are 
starting to have some stricter requirements on development, 
which I think most are understanding, you need to make a good 
faith effort to try to look at areas that you can improve that 
are already constructed, whether it is what we have done with 
cement streams or what we have done with some of the runoff 
from transportation, or existing construction. But clearly 
there is more potential in dealing with new construction than 
any place else.
    Mr. Gannon, you raised a point I had not thought about. I 
usually think of wastewater treatment facility plants as the 
major problem on point source issues. I had not thought about 
the septic systems that are not connected to sewage, to public 
lines.
    Is there much area of improvement that we could have here? 
Is there much seepage that could be contained where you are not 
connected to public sewage?
    Mr. Gannon. Yes. I think that the secondary treatment that 
Maryland has imposed with the Bay Restoration Fund, there are 
four or five different companies that are offering secondary 
treatment. I think the secondary treatment that is happening is 
at least a step in the right direction, and I think that 
mandating secondary treating rather than just a gravity flow 
system, and this really is not my area of expertise, it is just 
more supposition based on our experience with dealing with 
these secondary treatment units.
    But they have, I think they are a step in the right 
direction to bringing a better technology to something that is, 
you know, ages, ages old technology which is the use of a 
septic tank and a tile field, which essentially just lets waste 
settle and then is discharged into a tile field that eventually 
becomes groundwater at some point.
    Senator Cardin. The type of work that you are doing is--
give me a little bit better understanding of what your surveys 
do.
    Mr. Gannon. Well, we are just a third party independent 
laboratory that provides--part of the Bay Restoration Fund 
requirement was that the individual contractors contract a 
certified laboratory to provide them with data on the reduction 
between influent and the effluent, and somewhere in between, 
how their secondary treatment unit is doing its work.
    So what we do is we do the analysis and things on the 
influent and the effluent, as well as the sampling. That is 
another key protocol of the Bay Restoration Fund, that they 
have to have an independent third party do the sampling. And 
that is where we come in.
    Senator Cardin. Thank you.
    Mr. Wurtzel, one might wonder why a former CEO of a major 
company would be suggesting that perhaps we need more 
environmental regulation. I am not surprised to hear you say 
that. We have a lot of businesses that have been partnered with 
us on the Chesapeake Bay and looking for reasonable ways to 
deal with it.
    But I would like to get your perspective as to whether you 
are subjecting yourself to criticism because of suggesting that 
we could use stronger regulation.
    Mr. Wurtzel. I do not think that regulation----
    Senator Cardin. You need to put your microphone on.
    Mr. Wurtzel. Regulation, in my opinion, is not a four-
letter word. We are all on the highways every day, and we have 
regulations for traffic. And I think we all accept them because 
if you did not have regulation, we would be driving like bumper 
cars, and it would be chaos.
    So as our society becomes more complicated, as we become 
more interdependent, we are going to have to--we need, in 
effect, more regulations. They have to be smart regulations. 
They have to be flexible regulations. Cap-and-trade, they have 
to be as market-based when possible as they can be. We require 
kids to go to school. We require you to have a driver's 
license. We require you to have your car inspected, all sorts 
of things.
    Now that we see the interconnection, let us say, between 
agriculture and the Bay, between development and the Bay, 
between runoff from our roads and the Bay, the fact that there 
are adverse consequences downstream means you have to attack 
them upstream. And we have to do it in as smart a way as 
possible and in as compassionate a way and provide, where 
necessary, the resources for farmers or other people that are 
impacted to make the necessary changes.
    But we cannot live in a complicated society, I believe, 
without regulations.
    Senator Cardin. I think that is well said. I alluded 
earlier that the success of the Chesapeake Bay Program from its 
inception was that it had strong private sector support, 
including from the business community.
    Mr. Wurtzel. Right.
    Senator Cardin. From its inception. And the first 
regulations that were put in in Maryland were very much 
involved with the business community and they support us----
    Mr. Wurtzel. Right.
    Senator Cardin [continuing]. In the original steps taken in 
Maryland and in Virginia. I think the way you said it, that 
they want sensible regulations, they want predictable 
regulations, achievable standards.
    Mr. Wurtzel. Exactly.
    Senator Cardin. So that is our challenge.
    Mr. Fults, both you and Mr. Wurtzel spoke in favor of the 
trading of nutrient levels. I just want to challenge you on one 
of the things that you said. You said that it has got to be 
fair, which we all agree about that. Of course, as we also 
mentioned earlier, we have to have limits so that there is a 
market for what we are trying to do.
    And then you said, though, that we need to have some 
equality among the different areas, I think I heard you say 
that, and where they are used, etc. That seemed to me to say, a 
little bit, that you are going to interfere with the market. 
You are not going to let it be pure, from the point of view of 
the most valuable use of the offsets, because you will have 
some form of restrictions as to where the offsets can come from 
or where they can be used.
    I just really want to challenge you to at least respond to 
me whether those types of restrictions are warranted as an 
interruption to the otherwise free market approach on the 
trading system.
    Mr. Fults. Well, sir, the challenge was in discussion of 
the Federal funding. We are a private, market-based approach of 
which we require no Federal funding, and we request no Federal 
funding in the resolution of our offsets. So my discussion was 
based on, as you all fund the Bay programs, that you do it 
equitably.
    I believe as you create a private market, if you take a 
watershed approach, or actually I am in favor of a baseline-
based approach where there is an equivalent currency for an 
offset, that we might be able to allow private market 
achievements to begin to make the difference beyond baseline.
    Virginia has taken a first step model where we have allowed 
the creation of offsets beyond a baseline component, and I 
think that is important. It is up to you to decide how you 
spend your Federal money, but the challenge is that we are not 
asking for Federal money, our solutions are real and active 
today.
    Senator Cardin. And we would put into this reauthorization 
the fairness as to how the moneys are going to be used. So as 
long as we use the entire watershed, you think that the trade 
model used for nutrients could be throughout the whole 
watershed without requirements as to where those offsets come 
from?
    Mr. Fults. We do believe that it is a bigger outlook. It is 
a picture taken from in the sky, that you do trade by a 
watershed-based approach, that over time both the grassroots 
movements, the clean environments of the builders and the 
efforts of a private market will create a substantial change.
    Our retirements are permanent, and one of the things I 
learned in the last 3 years is that there is a very strong bi-
partisan support of our objectives, and there is a very strong 
support from the various grassroots foundations through the 
home builders. I think that it provides them with that last bit 
that he was talking about, that it is just unachievable. And 
you said it yourself--this goal has to be achievable. So it 
provides one component in the suite of----
    Senator Cardin. So you would not have a concern, 
necessarily, as long as, again, it is all set up in a fair 
manner, we have achievable goals, I am assuming that. So one of 
Mr. Mitchell's friends, or Mr. Mitchell, was involved in some 
sort of development and needed some offsets for the work they 
are doing in Maryland, looking for an opportunity, perhaps in 
Pennsylvania, for those offsets, that is part of what you see 
as a proper offset system?
    Mr. Fults. I think it is most accountable on a watershed by 
watershed basis, but I believe, at the end of the discussion, 
each State should have accountability to the overall Bay.
    Senator Cardin. That is very helpful.
    Again, I want to thank all four of you for your testimony. 
This is not the last time we are going to be talking to you 
about these issues. This is a process in evolution. We hope 
that, shortly, we are going to be able to circulate a 
reauthorization bill for comment, and we are hoping, again, to 
be able to get reauthorization legislation through the Congress 
before the end of the year. That is our goal, and that is our 
objective.
    And with that in mind, this is the second hearing, and I 
think we filled in some more of the answers to our questions as 
we try to achieve what we have been asked to do by our 
partners, and that is for the Federal Government's role to be 
more than just providing tools but also providing a way that we 
have a better chance of achieving the objectives that we have 
set out among the different partners participating.
    With that, we are going to try to achieve that by 
circulating a draft. And we thank you all for participating in 
the process.
    Mr. Wurtzel. And we thank you, Senator, for your leadership 
on this effort.
    Senator Cardin. Thank you.
    The subcommittee will stand adjourned.
    [Whereupon, at 4:22 p.m. the subcommittee was adjourned.]
    [An additional statement submitted for the record follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    The Chesapeake Bay Program is a regional partnership that 
was started in 1983. Bay Program partners include the States in 
the watershed, the Chesapeake Bay Commission, a tri-State 
legislative body; the Federal Government, represented by EPA; 
and participating citizen advisory groups. The Chesapeake Bay 
watershed stretches across more than 64,000 square miles, 
encompassing parts of six States we have represented here 
today--Delaware, Maryland, New York, Pennsylvania, Virginia and 
West Virginia and the District of Columbia. The watershed 
includes more than 100,000 streams and rivers that eventually 
flow into the Bay.
    I am glad that Senator Cardin is holding this important 
hearing today. States, local governments and private citizens 
are the primary caretakers for their water resources. They have 
the knowledge and expertise to understand how best to deal with 
environmental concerns, almost always better than a Washington 
bureaucrat, far removed from the stream or tributary. I am very 
glad that we have all the States in the Bay watershed here 
today, and I encourage them to tell us what they are doing and 
where they have been successful.
    I know firsthand that voluntary environmental programs are 
very successful. Since 2003, the Oklahoma Conservation 
Commission has invested in conservation practices in Oklahoma's 
top priority watersheds. These State conservation and education 
programs have documented a 69 percent decrease in phosphorous 
and nitrogen in a tributary to the Illinois River. This wasn't 
achieved through a top down, EPA driven program, but through 
partnership with the State and local land users to ensure 
sustainable results through locally led, voluntary solutions. 
My State's experience is that heavy handed regulations that 
ignore economic realities and property rights do not work.
    As we look toward re-authorizing the Chesapeake Bay 
Program, it is important to hear from all stakeholders about 
the parts of the program that work and the parts of the program 
that could be improved. Taking care of a resource like the 
Chesapeake Bay requires the buy in of all interested 
stakeholders, from businesses, to fishermen, to land users and 
developers upstream. A top down, heavy handed Federal approach 
will not lead to the kind of real changes that are necessary to 
ensure the health of the Bay.

                                 [all]
</pre></body></html>
